<html>
<title> - RESOLVING THE POLITICAL CRISIS IN THE DEMOCRATIC REPUBLIC OF THE CONGO</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





 RESOLVING THE POLITICAL CRISIS IN THE DEMOCRATIC REPUBLIC OF THE CONGO

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 9, 2017

                               __________

                           Serial No. 115-96

                               __________

        Printed for the use of the Committee on Foreign Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                   ______
 
                          U.S. GOVERNMENT PUBLISHING OFFICE 
 
 27-515 PDF                     WASHINGTON : 2018 
 -----------------------------------------------------------------------
   For sale by the Superintendent of Documents, U.S. Government Publishing 
   Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
          DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                           Washington, DC 20402-0001
   
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
VACANT

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
DANIEL M. DONOVAN, Jr., New York     AMI BERA, California
F. JAMES SENSENBRENNER, Jr.,         JOAQUIN CASTRO, Texas
    Wisconsin                        THOMAS R. SUOZZI, New York
THOMAS A. GARRETT, Jr., Virginia




























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Donald Yamamoto, Acting Assistant Secretary, Bureau 
  of African Affairs, U.S. Department of State...................     6
Ms. Cheryl Anderson, Acting Assistant Administrator, Bureau for 
  Africa, U.S. Agency for International Development..............    16
Mr. Mvemba Dizolele, professorial lecturer in African studies, 
  School of Advanced International Studies, Johns Hopkins 
  University.....................................................    37
Mr. Fred Bauma, representative, La Lutte pour le Changement......    46
Ms. Severine Autesserre, Ph.D., professor of political science, 
  Barnard College, Columbia University...........................    53
Ms. Ida Sawyer, Central Africa director, Human Rights Watch......    65

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Donald Yamamoto: Prepared statement................    10
Ms. Cheryl Anderson: Prepared statement..........................    18
Mr. Mvemba Dizolele: Prepared statement..........................    40
Mr. Fred Bauma: Prepared statement...............................    49
Ms. Severine Autesserre, Ph.D.: Prepared statement...............    55
Ms. Ida Sawyer: Prepared statement...............................    68

                                APPENDIX

Hearing notice...................................................    92
Hearing minutes..................................................    93
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations:
  Material submitted for the record..............................    94
  Prepared statement by His Excellency Francois Balumuene Nkuna, 
    Ambassador of the Democratic Republic of Congo...............   102
Written responses from the Honorable Donald Yamamoto to questions 
  submitted for the record by the Honorable F. James 
  Sensenbrenner, Jr., a Representative in Congress from the State 
  of Wisconsin...................................................   105
 
 RESOLVING THE POLITICAL CRISIS IN THE DEMOCRATIC REPUBLIC OF THE CONGO

                              ----------                              


                       THURSDAY, NOVEMBER 9, 2017

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 9 o'clock 
a.m., in room 2172, Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The hearing will come to order, and welcome. And 
I think the committee is privileged to see our distinguished 
chairman, Ed Royce, joining us, chairman of the full committee. 
And I thank him for his leadership on Africa having once been 
chairman of this subcommittee.
    So great to see you, Ed, and thank you for your ongoing 
leadership and for yesterday's important briefing with Nikki 
Haley, our Ambassador to the United Nations, and a major 
portion of that important briefing late in the afternoon was on 
the Democratic Republic of Congo. So thank you, Chairman Royce.
    The Democratic Republic of Congo was supposed to conduct 
elections 1 year ago this month in order to achieve the 
required transition of political power by December 19th.
    However, after years of stalling on making preparations for 
elections, the Government of the DRC failed to hold elections 
last year and relied on a constitutional provision that 
President Joseph Kabila could not step down until an election 
was held to select a replacement.
    Both Chairman Royce and I, Karen Bass, our ranking member, 
and others, have had ongoing meetings with DRC officials, 
including high-level people who have flown here to Washington. 
And time and time again, we have admonished them, urging them 
to stick to the schedule and hold these elections, and ensure 
that they are free and fair.
    The interpretation by President Joseph Kabila of the 
Constitution is an apparent contradiction to other 
constitutional provisions requiring elections to be held on 
time and limiting President Kabila to two terms. The Election 
Commission has just announced that elections cannot be held 
until sometime in late 2018. We were told by Ambassador Nikki 
Haley they are talking about December 2018, and how often have 
we seen those timelines slip? And then we would be in 2019. And 
I think Ambassador Haley made it very clear in yesterday's 
briefing that there are an abundance of sanctions, almost like 
a sort of Damocles, that would hold over the heads of those 
who, again, would push to delay. And I think that is very real, 
and I hope it is very compelling pressure to ensure that they 
do exactly what they say they would do, because this is what 
the people of the DR Congo want: They want a free and fair 
election; they want to choose their next leader.
    Polling has indicated that the majority of the Congolese 
want Kabila's government to end and be replaced by a 
transitional government until a new one can be elected. We 
don't take sides, but we do want free and fair, and we want to 
make sure that the people's will prevails.
    Enduring conflict hotspots in Eastern DRC has seen recent 
flare-ups. And I would note parenthetically, back in 2005, I 
traveled to Goma, along with my good friend and chief of staff, 
Greg Simpkins, and we saw, on the ground, and met many of the 
people who had been raped, many of the women who had been so 
horrifically sexually abused, but we also, like Africa 
Compassion, an organization that did wonderful work with 
helping to heal and to mitigate the damage of such abuse, saw 
that there were people on the ground, indigenous Congolese who 
cared so much that they were going the extra mile to make sure 
that the fighting stopped and also that there would be a way 
forward for those who had been abused.
    In two other regions, Kasai and Tanganyika province, the 
conflicts in Kasai and Tanganyika alone have caused the 
displacement of nearly 2 million people since mid 2016. This is 
in a country, where a war that seemed to never end, took the 
lives of some 4 million people.
    Now we all focused, as we should, on Darfur and the loss of 
life there. The number of people that have lost their lives in 
DRC historically eclipses that, which is a terrible, terrible 
legacy.
    The DRC has one of the highest rates of human displacement 
in the world. Political unrest in urban centers, a string of 
large prison breaks and violent attacks in Kinshasa, the 
capital, by members of the religious sect that has declared 
itself in opposition to Kabila have further contributed to the 
worsening security of the conflict in Kasai, which reportedly 
was first sparked in 2016 by the murder of a judicial leader by 
state security forces and had become a catastrophic 
humanitarian crisis, featuring severe atrocities and widespread 
recruitment and abuse of children.
    Meanwhile, the ongoing conflict in Eastern DRC, at one 
time, saw violent activity by 2 million militia groups, and an 
out-of-control national army resulting in the systematic rape 
of about 50 women and girls per hour.
    This hearing is intended to look at possible solutions to a 
political stalemate that could very well lead to further 
violence and upheaval in a large African country bordering on 
nine neighbors. It follows a successful resolution on DRC that 
I introduced that was passed by the House last year. Ranking 
Member Bass and I are introducing new legislation very soon.
    We understand that there is no easy solutions to the 
current crisis in DRC. A negotiated transition likely could be 
achieved if President Kabila were convinced that neither he nor 
his family would be prosecuted for human rights violations or 
corruption. However, that would reward them for abusing their 
citizens and plundering the country's resources, and that is 
even if members of his government were not covered.
    A palace coup might take place in Kabila. This is not 
unknown in the DRC. Kabila's father, Laurent, was assassinated 
in office in 2001. Mobutu Seko, who the elder Kabila had 
himself overthrown in elected government in 1965. He was chased 
from power and fled into exile in 1997.
    However, a coup would not support international efforts to 
instill democratic practices in DRC, and could lead to 
protracted infighting and national chaos. We want an orderly, 
peaceful transition, and that's what the international 
community led by the United States is asking and really 
demanding.
    The status quo, as detailed earlier, is already leading to 
growing violence, and will not lead to a peaceable solution the 
longer that transition is delayed. In fact, it is more likely 
that violence could escalate and spill over into neighboring 
countries, as did conflict in 1967, 1997, and 1998 to 2003.
    Over the past year, we have heard many, many promises by 
the Government of the DRC about when the elections will be 
held. There have been several dates given to when voter 
registration would be completed during this past year. The 
current government timetable calls for voter registration to 
extend to the point at which elections couldn't be held in the 
DRC until late 2018, with inauguration early in 2019. That 
would mean that Joseph Kabila could have an extra half term in 
office when the Constitution precluded him from going past 
December 2016.
    Consequently, we will, today, hear from the State 
Department on our Government's diplomatic efforts to resolve 
the transition stalemate and the U.S. Agency for International 
Development on our Government's programs on the ground to 
promote democracy and free and fair elections.
    Our second panel consists of scholars and activists who 
will give us their informed insights as to how we can break 
this political stalemate and prevent more bloodshed in the DRC.
    Again, no solution will be easy or without cost, but 
nonaction would even have a higher cost in terms of human 
lives. And that we must not tolerate.
    I would like to yield to my distinguished friend and 
colleague.
    Mr. Royce. Well, I will defer first to the ranking member.
    Ms. Bass. All right. Thank you, Mr. Chairman, and Mr. 
Chairman.
    I appreciate that. Thank you for your leadership, for 
holding this hearing today. And I want to thank and welcome our 
distinguished witnesses today.
    You know what is so tragic is that we all know that DRC is 
potentially one of the richest countries on earth. We know that 
it has an abundance of deposits of copper, gold, diamonds, 
cobalt, and many other minerals. We know that the Congo River 
is the second largest river in the world and the most powerful 
river in Africa, which means that the country has enormous 
potential to generate hydroelectric power. And some scientists 
say that it could provide enough power for all of sub-Saharan 
electricity needs.
    Now, on the other side of this, we know the stark reality 
of living in DRC today. We know that it is one of the poorest 
countries in the world, ranking 176 out of 187 on the latest 
U.N. Human Development Index. More than half of the country 
lives in extreme poverty, and we know that there are 3.8 
million internally-displaced persons. And we also know that 
there are parts of the DRC that are on the brink of hunger and 
famine.
    We shouldn't forget that in March of this year, all of the 
humanitarian efforts, we had two U.N. investigators of American 
and Swedish nationality and their Congolese interpreter, who 
were found dead. They were there to investigate alleged large-
scale violence, and alleged human rights violations by the 
Congolese army and local militia groups.
    So we know with the world's most complex humanitarian 
crisis, the DRC has 7.3 million people in need of humanitarian 
assistance. But aid workers are finding it increasingly 
difficult to address the deteriorating situation in the DRC, 
and many face the risk of attacks and are unable to access 
areas in most need of humanitarian assistance. So the signs 
coming out of the DRC are not encouraging.
    The Congolese Government and the main opposition coalition 
reached a political agreement to organize a vote by the end of 
2013, and Kabila committed to not run for a third term. 
However, yesterday, we met, as the chairman mentioned, we met 
with our U.N. Ambassador, Nikki Haley, who said that the DRC 
has announced that they will hold Presidential elections in 
December 2018. That seems like a ridiculously long time to 
wait, considering the elections were supposed to be held long 
ago. And I think, as you mentioned in your comments, that is 
just a way of really extending it into another term.
    But my concern is, is that even if it is genuine that there 
will be elections held in December 2018, I am not convinced 
that that does not mean that Kabila won't be on the ballot 
until we hear definitively a public announcement that he will 
not seek a third term, and will not change the Constitution. 
And I believe, if I heard the Ambassador right, Mr. Chair, she 
did say that he said he wouldn't change the Constitution, 
correct?
    Mr. Smith. That is right.
    Ms. Bass. But I do not believe he has made the public 
statement that he will not be on the ballot, which, obviously, 
if he was on the ballot, that is a violation of the 
Constitution; however, we all know that sometimes, people find 
ways of saying they are not violating the Constitution, like in 
Burundi, it was just a different interpretation, and the world 
will not tolerate that.
    I was encouraged by the Ambassador yesterday making very 
strong statements that the United States will not be there in 
support of the country unless we do see a commitment for a 
peaceful transition. And with that, I yield to the other 
chairman.
    Mr. Royce. Thank you, Mr. Chairman. Look, I want to thank 
you, and I want to thank Ranking Member Karen Bass for the 
focus that both of you have kept on the DRC; and for the trips 
that both of you have taken to the DRC; the resolutions that 
the two of you have passed; the effort to, sort of, galvanize 
our attention on this tragedy, a tragedy like no other, as you 
mentioned when you talked about the millions and millions who 
have lost their lives there. And a lot of it is a governance 
issue with respect to a lack of rule of law. And that emanates, 
unfortunately, from Laurent and then to Joseph Kabila.
    I also want to thank Greg Simpkins for--back in 1997, Tom 
Sheehy and I, and a delegation from this committee, were in 
neighboring Angola meeting with Savimbi and dos Santos, with 
our Ambassador trying to broker peace there. And that night the 
Government of Mobutu was overthrown.
    Ms. Bass. Oh, you were there?
    Mr. Royce. We were there. And Greg was our interpreter, 
luckily, and we were able to take a plane into the airport in 
Kinshasa. And we met with the new government, that was 1 day 
new, and he was able to also communicate with Tshisekedi, who 
was being pushed aside.
    We didn't find out all until a little later, we were able 
to track and follow Laurent Kabila, met with him in Harare in 
order to discuss this issue, the rule of law, the Constitution, 
the importance of elections. And we have struggled under the 
Kabilas now. I think we have made three trips, I have with Mr. 
Sheehy to Kinshasa, and we have met numerous times here or in 
New York.
    I have to give Ambassador Haley credit for, not just the 
commitment she got in terms of the December 23rd election next 
year, but also the benchmarks that are to be put in place, and 
the announcement on the part of Joseph Kabila, that there will 
be an election. Now, it falls on us and the international 
community.
    So this is really good news. We finally have an election 
calendar. And I think we have to welcome not only the 
announcement, but the sense among the people in Congo, when you 
see them in civil society asserting their rights to be part of 
this process, because they have felt the consequences more than 
anyone.
    And so, I think the State Department, the administration, 
and us on the committee, we have to monitor this progress. And 
if deemed insufficient, we must use every tool we have to 
pressure the government in Congo. Now is the time. If we do not 
address the political instability, then the violence and the 
unrest across that country, which has cost over 4 million lives 
so far, is only going to escalate. And as we watch people 
flee--and recently we have seen another 1 million try to escape 
the violence--when we see the 2 million that are displaced on 
our trips there, living in camps, we know that the humanitarian 
situation is dire and warrants our immediate attention, and the 
world's immediate attention. And we really encourage the NGO 
communities, some of who are here today, because too many 
Congolese are suffering.
    So we look forward to the witnesses' testimony today. And 
again, Chairman Smith, I thank you for this hearing.
    Mr. Smith. Chairman Royce, thank you very much again for 
your long-standing, decades-long leadership. I really 
appreciate it. Dan Donovan, the gentleman from Staten Islands
    Mr. Donovan. Thank you, Mr. Chairman. And since I am not a 
chairman or ranking member--and I learn so much more by 
listening and speaking. I just learned how long Greg has been 
here. I am going to yield my time so that Secretary Yamamoto 
and Administrator Anderson can have more time to testify. Thank 
you, sir.
    Mr. Smith. Thank you very much. I would like to now 
introduce our first panel, our two very distinguished public 
servants and leaders, beginning with Ambassador Donald 
Yamamoto, who serves as Acting Assistant Secretary in the 
Bureau of African Affairs in U.S. Department of State.
    He has served as Deputy Assistant Secretary of State in the 
Bureau of African Affairs from 2003 to 2006, and where he was 
responsible for coordinating U.S. policy toward 20 countries in 
East and Central Africa.
    Ambassador Yamamoto was also our Ambassador to the Republic 
of Djibouti from 2000 to 2003, as well as to Ethiopia. He was 
the Deputy Director of East African affairs from 1998 to 2000.
    And without objection, your full resume and that of our 
distinguished other witness, Cheryl Anderson, will be made part 
of the record.
    Ms. Anderson is working as the Acting Assistant 
Administrator for the Bureau of African Affairs for USAID, the 
Agency for International Development. Ms. Anderson has more 
than 20 years of development experience, mostly in Africa. 
Since joining USAID as a foreign service officer, she has 
worked in USAID's admissions in the Democratic Republic of 
Congo, Uganda, Sudan, and East Africa.
    Prior to joining USAID, Ms. Anderson worked as a program 
manager at Health Link Worldwide, and also served as a Peace 
Corps volunteer in Ghana. And she has also testified before our 
subcommittee. So both of you, welcome back and we look forward 
to your insights and recommendations.
    The floor is yours, Ambassador Yamamoto.

 STATEMENT OF THE HONORABLE DONALD YAMAMOTO, ACTING ASSISTANT 
 SECRETARY, BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT OF STATE

    Ambassador Yamamoto. Thank you very much, Mr. Chairman. And 
I ask for the longer version to be submitted for the record.
    Mr. Smith. Without objection, so ordered.
    Ambassador Yamamoto. And thank you very much, Chairman 
Smith, and Ranking Member Bass and Chairman Royce. Thank you 
very much for this very important hearing today.
    Today's hearing comes at a critical juncture for the DRC. 
And the country faces two starkly different, possible 
trajectories over the next 12 months, where we have 
Presidential elections on December 2018 and the DRC's first 
peaceful democratic transfer of power. Or alternatively, where 
we see the absence of genuinely free and fair elections and a 
continuation of the current political impasse, we could see the 
DRC return to widespread violence and instability. Our 
immediate focus is to support the stability of the DRC through 
genuine free and fair elections that are credible and inclusive 
and lead to a peaceful democratic transfer of power.
    With the November 5th announcement of the DRC's electoral 
commission by the CENI, the elections will be held in December 
2018. We have an opportunity to support the Congolese people 
achieve historic democratic transfer of power. However, this 
will require political will on behalf of the Government of the 
DRC to organize credible elections and commitment by the 
oppositions to participate through the democratic process, and 
continued engagement, pressure, and support from the 
international community, including the United States.
    Ambassador Haley's October visit to the DRC sent a very 
clear powerful message to President Kabila and his government, 
that further delays and an unrealistic electoral calendar will 
be unacceptable.
    Ambassador Haley also told opposition party leaders that 
the United States does not support calls for unconstitutional 
change, and stressed the need for all actors to work within the 
framework of the DRC Constitution and the December 2016 Saint 
Sylvestre Agreement.
    The administration is building on the momentum provided by 
Ambassador Haley's visit in the light of the CENI's recently-
announced electoral calendar to push all parties in the DRC to 
advance the electoral process. There is much at risk due to the 
DRC's vast size, population, and strategic location, including 
nine international borders. Continued delays by the government 
in holding elections has increased tensions, undermined already 
weak, or in some regions of the country, nonexisting state 
authority, and risked increased violence, unrest and 
instability.
    The administration's focus now is on ensuring that the CENI 
and the government of the DRC implement the election calendar 
and do not undertake any actions that further postpone the long 
overdue elections. We believe there's an opportunity for 
progress despite the challenges. A democratic transition of 
power, which can only come through genuine free and fair 
elections, is essential for the Congolese people, the African 
subregion and the U.S. strategic interests across the 
continent, including: Preventing wide-scale regional insecurity 
and instability, which have been a precursor to multistate wars 
and genocide; denying illegal armed groups, criminal networks, 
and international actors and regimes, such as North Korea and 
ISIS; and access to black markets to which trade and minerals 
and other natural resources; preventing the region from 
becoming a stateless zone that is impossible to monitor and 
responding to disease outbreaks such Ebola pandemics; and 
preventing the recruitment and use of child soldiers and 
atrocities such as the rape of women and girls as a weapon of 
war.
    While elections alone will not solve DRC's daunting 
challenges, they are critical to the country's stability. We 
are prepared to work with our international partners to ensure 
that the electoral process is transparent, and conducted in 
accordance with international standards.
    It is important to understand this extremely complex 
country. The DRC is the size of the United States east of the 
Mississippi, with more than 80 million people, and almost no 
basic infrastructure. All nationally elected politicians, not 
just President Kabila, have now overstayed their elected terms 
in office. Opposition parties and civil society are 
understandably deeply distrustful of the CENI's and the 
government's commitment to elections. Restrictions on freedom 
of assembly as well as politically-motivated prosecution of 
opposition leaders, has significantly exacerbated tensions. 
Already weak and limited state authorities has become 
increasingly tenuous, and even absent in many areas, and some 
elements of the state security forces have committed human 
rights violations and abuses and mass atrocities.
    Numerous non-state armed groups also continue to operate in 
the DRC. The DRC is one of the world's poorest countries, 
despite having enormous natural resources and wealth.
    Despite the complex environment, we know that genuinely 
free and fair elections can be held in 2018, and there is no 
question that the Congolese people deeply desire to choose a 
new leader through elections. The African Affairs Bureau of the 
State Department is working with our interagency partners to 
ensure concrete steps are implemented toward elections that are 
genuinely free, fair, credible, timely, and inclusive, and 
result in a peaceful democratic transfer of power. We are 
similarly coordinating closely with our international partners 
and regional states and multilateral institutions. Key elements 
of this approach include: With the announcement of the 
electoral calendar of December 2018, we are coordinating 
closely with our international partners to actively press the 
CENI and the DRC Government, to fully implement all required 
steps in the DRC's electoral process.
    Second, we are actively pressing both the government and 
the opposition to operate within the framework of the 
Constitution and the December agreement to reject violence and 
calls for unconstitutional change.
    Third, we have actively pressed, both through public 
statements and private diplomatic engagements, the Government 
of the DRC to respect political freedom and rights and refrain 
from excessive and unlawful use of force.
    Next, we are coordinating our messaging and advocacy with 
key partners, including our European and regional partners. And 
finally, since June 2016, if we have imposed targeted sanctions 
on six current and former DRC Government officials, we remain 
prepared to impose additional targeted sanctions as 
developments warrant.
    While our immediate focus is on the electoral process, the 
DRC's urgent and ongoing security and humanitarian needs also 
remain important priorities. Together with our international 
partners, the United States has striven to end the violence 
throughout the DRC, including specifically in the Kasais and 
the East. We are continuing to provide assistance in response 
to the humanitarian crisis, and to ensure that those 
responsible for abuses and atrocities are held accountable. We 
have worked with international partners to address the 
humanitarian needs of 3.8 million internally-displaced persons, 
over 620,000 Congolese refugees now living outside their 
country, and nearly 543,000 refugees for neighboring countries 
who are inside the DRC. We will continue to engage with the DRC 
Government, the U.N., and our international partners, in 
finding a long-term solution to bring about peace and 
stability.
    In conclusion, the stability of the DRC is a key 
administration objective in Africa, given the DRC's significant 
economic, geopolitical and security-related importance. We need 
only recall the ramifications of the last DRC war from 1998 to 
2002, to understand the enormous transnational negative impact 
of armed conflict and political crises in the Congo, and 
through free, fair, credible, inclusive elections, leading to 
of a peaceful democratic transfer of power are central to the 
DRC and the region's long-term stability and development. There 
remain many challenges and risks to achieve these goals, but 
our engagement and commitment are unwavering. And thank you, 
and I welcome your questions.
    [The prepared statement of Ambassador Yamamoto follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
                              ----------                              

    Mr. Smith. Thank you very much, Mr. Ambassador.
    Ms. Anderson.

      STATEMENT OF MS. CHERYL ANDERSON, ACTING ASSISTANT 
ADMINISTRATOR, BUREAU FOR AFRICA, U.S. AGENCY FOR INTERNATIONAL 
                          DEVELOPMENT

    Ms. Anderson. Good morning, Chairman Smith, Ranking Member 
Bass, Congressman Donovan. Thank you for inviting me to speak 
today about the Democratic Republic of Congo. It is always an 
honor to have an opportunity to discuss our work with 
supporters of Africa. And for me, it is a pleasure to be back 
testifying before this subcommittee.
    USAID has maintained a long-term relationship with the DRC 
and its people since the country became independent in 1960. 
With its vast mineral wealth, the country has tremendous 
opportunity for economic growth that could lift citizens out of 
poverty, and propel the country into middle-income status. 
Instead, protracted political uncertainty is fueling violence 
and instability, and prevents the realization of the country's 
full potential.
    The reality is that the DRC is teetering on the brink of a 
crisis such as it has not seen since the formal end of the 
second Congo War in 2003.
    Due to the political crisis and continued electoral delays, 
the mandates of all elected DRC Government officials have 
officially expired.
    While an election alone will not solve the DRC's many 
challenges, credible inclusive Presidential and legislative 
elections are critical to ensuring a peaceful transition of 
power, reducing the risk of widespread violence, and 
strengthening the country's democratic institutions and 
economic development.
    We are pleased with the recent release of an electoral 
calendar, but voter registration, already months behind 
schedule, must be completed. Revised electoral laws have to be 
passed and funding has to be appropriated by the DRC Government 
to cover the cost of organizing national elections.
    Finally, the Government of the DRC needs to take immediate 
steps to allow civil society, journalists and citizens to 
express themselves, protect the human rights of its citizens 
and ensure that all political parties are afforded equitable 
access to the media, and that their rights to assemble 
peacefully are respected.
    Alongside other U.S. Government agencies, USAID remains 
committed to supporting the timely organization of peaceful, 
credible, and inclusive elections, that reflect the will of the 
Congolese people. We have provided approximately $37 million in 
election and political processes programming since 2013. This 
includes five components: Support for domestic election 
observation; civil and voter education; targeted technical 
assistance to the electoral commission, CENI; political party 
strengthening; and electoral justice.
    USAID's election observation activity is implemented by the 
local Episcopal Justice and Peace Organization. This is the 
leading Congolese election observation organization.
    We are helping to build their capacity to train and deploy 
long- and short-term domestic election observers in accordance 
with international standards.
    The civic and voter education program is helping more than 
35 different Congolese civil society organizations to inform 
citizens, and particularly women, youth and other traditionally 
marginalized groups, about the electoral process, their rights 
and role as voters, and the importance of peaceful 
participation in the elections.
    A grant to the United Nations Development Program (UNDP) 
provides technical assistance to the Electoral Commission, 
CENI, for operations, logistics, and effective use of 
information technology. USAID's political party strengthening 
program provides training to 10 political parties--five from 
the ruling majority, and five from the opposition--to better 
represent and respond to citizens' concerns, and improve the 
internal management and organization of the parties.
    Finally, our human rights and electoral justice activity 
strengthens the capacity of national level justice actors, the 
courts, and civil society organizations to conduct legal 
education, provide legal services and monitor and respond to 
human rights violations, including electoral disputes.
    The stakes for the DRC and for its neighbors could not be 
higher. Again, we are encouraged by the announcement of an 
electoral calendar, but we will now need to see confidence-
building measures to ensure that this timeline is respected and 
implemented, and all measures are taking for free, credible and 
peaceful elections.
    This includes an end to politically-motivated prosecutions, 
the release of political prisoners, and respect for the right 
of peaceful assembly and association, so that opposition 
parties and civil society organizations may hold peaceful 
public meetings without government interference or 
intimidation.
    Thank you, Mr. Chairman, Ranking Member Bass, members of 
the subcommittee. I look forward to hearing your counsel and 
responding to your questions.
    [The prepared statement of Ms. Anderson follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
                              ----------                              

    Mr. Smith. Thank you so very much, Ms. Anderson.
    To begin the questioning, I just want to make clear, 
especially for the C-SPAN audience that is following. Some of 
them might say, why are we can doing this? Why do we care 
whether or not a President follows his own Constitution, and 
whether or not he, having given commitments and being bound by 
that Constitution to two terms, why are we so concerned about 
it? And I think the seemingly esoteric concern about rule of 
law, which is important, is eclipsed by the potential for 
horrific conflict, loss of life that we are already seeing 
shaping up.
    We know when these elections, and when people from various 
parties, or even tribes as the Nuer and the Dinka in South 
Sudan, that the flare-ups are huge, large numbers are people 
are slaughtered, and women are raped and horribly abused as a 
result. So we are on the cusp of what could be, as you have 
pointed out in your testimonies, an incredible new flare-up of 
violence in a region, as you pointed out, Ms. Anderson, that is 
the size of Western Europe, with 100 million people 
approximately, a large country where the potential loss of life 
is very real.
    So my questions, first beginning with, again, the violence 
in the Kasai region, the number of internally displaced 
Congolese has surged to more than 3.8 million, while the number 
of suffering from acute food insecurity has reached 7.7 
million. The U.N. has declared a level 3 humanitarian emergency 
in the DRC, putting it in on par with crises in Iraq, Syria, 
and Yemen.
    And I am wondering if you could speak to how we are trying 
to mitigate this terrible humanitarian crisis that is festering 
before our eyes. Secondly, let me ask you, if you could: With 
regards to peacekeeping, I am the one who, as you might know, 
who authored the Trafficking Victims Protection Act, our 
landmark law that combats sex and labor trafficking, and 
subsequent laws as well.
    It is a passion of mine, it is a passion of this committee 
to stop all trafficking, because it is modern-day slavery. As 
we all know, the peacekeepers who are deployed to DR Congo 
early on, particularly during Ambassador Swing's tenure in 
office, had a terrible record of bribing or taking gifts from 
young people, raping 13-year-olds. These are the peacekeepers 
from the U.N. We held several hearings on this subcommittee; 
Greg and I traveled to Goma, and met with the peacekeepers 
there and have raised it at the United Nations here in 
Washington and in country unceasingly.
    We understand that, and I have been tracking this, that the 
efforts are far better than they have ever been, but certainly 
not there yet. Peacekeepers who do commit crimes against 
Congolese, particularly women and girls, are not only sent back 
to their home countries, but there is a heavy admonishment by 
the U.N. They prosecute, put them behind bars, and to ensure 
that they are never redeployed to another peacekeeping mission 
ever again where they can recommit those crimes.
    If you could speak, if you would, to MONUSCO, whether or 
not it is practicing what we thought--Kofi Annan had called it 
the ``Zero Tolerance Policy.'' I had one hearing where he said, 
``Zero Tolerance Policy in DR Congo, zero compliance.'' Because 
it was so ineffectively being implemented.
    Notwithstanding the great efforts by Jane Holl Lute, an 
American who was in a key position there, had to fight for 
that, so if you could speak to that. And finally, let me ask 
you about the most credible, in my opinion, and reliable and 
effective interlocutors for peace reconciliation and free and 
fair elections, especially in the DR Congo, is the Catholic 
Church.
    Karen Bass and I were in South Sudan last May, and we met 
with Salva Kiir, the President, and had a very straightforward 
conversation with him, not all that happy, because of the 
terrible killings that are occurring there. He wouldn't even 
meet with the faith-based consortium of leaders, bishops, 
clergy of all kinds, who really are the key to reconciliation. 
And now, we see potentially a deja vu of that in the DR Congo. 
How do we support the church in its efforts and all those who 
are trying to have free and fair elections, the amount of 
money? Who is it going to, if you would? And as Nikki Haley 
said yesterday, you know, if this road map for having this 
election does not happen, we won't support the election. We are 
not going to support a fraud and a sham. So if you could speak 
to those three.
    Ambassador Yamamoto. Thank you, Mr. Chairman, that is a 
long list of issues that we need to tackle.
    First is going to MONUSCO, and the peacekeeping operation. 
As you know, 63 percent of all U.N. Ops is in Africa. And what 
we have been firmly committed, especially with this new U.N. 
Security Secretary General, but, also, our own commitment to 
human rights; and also, to your legislation, Mr. Chairman, 
which has been supportive and very helpful, is that we that we 
look at MONUSCO and all U.N. operations, that they have taken 
this necessary and proper steps on SEA, the sexual 
exploitation, and ensure that those who have committed those 
violations are held accountable. We are doing it just not on 
MONUSCO, but MINUSMA and all the other organizations.
    The Missions Conduct and Disciplinary team in MONUSCO is 
currently composed of 23 personnel with offices in Kinshasa and 
four regional offices, and MONUSCO's implementing strong 
preventative actions in training, et cetera, through risk 
assessment, military police deterrent patrols, enforcement of 
strict curfews, and out-of-bound regimes. And the SRSG, again, 
has taken a very strong and tough position on the SEA.
    The other issue too is, as you know, the United States and 
the State Department, we train peacekeeping troops of about 
over 300,000. Part of that is human rights, the protection of 
human rights and the protection of SEA.
    Let me go into the other areas on the violence, is that 
MONUSCO's main object and goal is to protect civilians, and, of 
course, we have had, from 2013, an intervention brigade, which 
is used to target groups like M23, and prevent other problems 
and militias from rising and creating issues. And so those are 
some helpful uses.
    But the other issue, too, is that we need to keep up a very 
consistent, persistent observation of the gross human rights 
abuses taking place in the DRC, not only just by militias and 
the FARDC troops, but by all groups. And we have to hold each 
person accountable.
    As you may recall, Mr. Chairman, that in June at the Human 
Rights Council, we supported the international experts being 
sent to Kasai to look at the gross human rights atrocities. 
And, of course, but not only looking at the atrocities, but 
also investigating the cases, particularly the death of Sharp 
and Catalan. This murder case will remain a priority for us to 
look at and to investigate.
    The other thing is, during Ambassador Haley's visit to the 
DRC, she met with CENCO, and also the Catholic Church and other 
faith-based groups. We agree in strongly supporting the 
facilitation that the Catholic Church had arranged in the Saint 
Sylvestre Agreement of 2016.
    And as you know, faith-based groups have been a cornerstone 
pillar for a lot of our operations, not just in DRC, but 
throughout Ethiopia, East Africa, West, et cetera, because of 
their commitment and quality of work and low overhead costs. 
And let me turn to my----
    Mr. Smith. And on the peacekeeping, you did touch on that 
somewhat but----
    Ambassador Yamamoto. Yes. On the----
    Mr. Smith [continuing]. Are you satisfied that they are 
protecting and the duty to protect is being followed and that--
--
    Ambassador Yamamoto. The issue for the peacekeeping--it is 
not. And let's be very clear, it is not. But the issue is the 
complexity of the DRC. By having a political impasse, it has 
emboldened a lot of the militias to conduct and engage in in 
very striking, gross human rights abuse. And one way to kind of 
rein in some of this abuse, is to have a coherent, free, fair, 
open election that are going to be executed and implemented in 
2018. We have to hold those people accountable.
    And let me just kind of, if I can go off one tangent on 
three issues, and that is, that there are three requirements 
that we are going to be focused on: That is the technical 
aspects requirements, the other thing is the political 
requirements, and also the human rights requirements. And so 
the technical, obviously, is the electoral process, announcing 
and registering voters, ensuring that they are scrubbed, 
looking at the voter registration, looking at the candidates' 
registrations. That is on the technical side. But on the 
political side is that what we are looking at, very carefully, 
is that the government, as well as the opposition, but the 
government has to give, have confidence-building measures.
    In other words, they cannot arrest political prisoners, 
they have to have open political space. They have to allow 
people to assemble and to discuss, and there has to be looking 
at and curbing at and addressing the excessive use of violence 
and force. So those are some of the issues, and that goes into 
the human rights issues we are looking at and trying to prevent 
and stop the excessive and gross human rights abuse. But let's 
go on to the----
    Ms. Anderson. Chairman Smith, you asked about the situation 
in the Kasais and then peacekeeping and then the churches. I 
would like to start with the situation in the Kasai provinces.
    First of all, the widespread violence and human rights 
violations that we have seen there are totally unacceptable. 
This is against innocent civilians. We know that the violence 
has been subsiding, but that should not take our attention away 
from the fact that this is a very serious security and human 
rights and humanitarian situation in the Kasais with people 
starting to come back. We also have to make sure that we don't 
lose sight of the fact that people need to be accountable for 
the abuses that we have seen.
    So the United States, along with our bilateral and 
multilateral partners, has been responding through efforts to 
end the violence and hold people responsible for the heinous 
acts. But also on the humanitarian side, we have been 
responding. We have scaled up our funding. It has been hard to 
operate, it had been previously hard to even get in there. As 
you mentioned, it can be very treacherous for humanitarian 
workers, but we did scale up a response for health and food 
security, as well as protection of children who are affected by 
the violence. And we airlifted 300 metric tons of blankets and 
cooking kits and other kinds of humanitarian supplies into the 
area in Kasai, Kasai-Central, Kasai-Oriental, and two other 
provinces there.
    In the whole country, this is just one part of the country, 
so there are different numbers out there. The ones that I have 
are that we have as many as 3.9 million internally-displaced 
people in DRC. And that is the most, that is the highest number 
for all of sub-Saharan Africa, and 600,000 refugees who have 
now left the DRC.
    In fiscal year 2017, the U.S. Government has provided a 
total of $190 million in humanitarian assistance across the 
country, and of that, $128 million is from USAID. And we also 
remain committed to providing humanitarian assistance to people 
who are in need, with, working with the U.N. and with our NGO 
partners.
    I won't really speak on peacekeeping, except to say that in 
the area of gender-based violence, I think you are aware that 
USAID has been very engaged since 2002 in preventing and 
responding to gender-based violence. And on the Catholic Church 
and churches and faith-based organizations, definitely, these 
groups play such a critical role in the country in keeping 
peace and helping to ensure that people hold their government 
accountable, that they are involved in the election process, 
and also in providing services across the country to people.
    We have repeatedly endorsed the Catholic Church's December 
31st agreement, and we continue to urge respect for that 
agreement. And I did mention earlier that we are working with 
the Episcopal Justice and Peace Organization on domestic 
election observation efforts.
    Mr. Smith. Thank you. Without objection, we are going to 
put the December 31st agreement into the record so all can see. 
Thank you for your testimony.
    I now yield to Ranking Member Bass.
    Ms. Bass. Thank you, Mr. Chair. Just a few questions. I 
wanted to get some specifics. Because when you are talking 
about--both of our witnesses--when you are talking about 
holding people accountable, I wanted to know how we do that?
    Ambassador Yamamoto, you were referring to, I think you 
talked about political, technical--you were talking about the 
confidence-building measures. And you said technical, political 
and human rights, is that what you were saying? So I wanted to 
know, you know, how we specifically go about that? I mean, I 
hear from people all the time of folks being arrested, and I 
don't know what our role in that is, or when we see the 
violence taking place, especially government-initiated 
violence.
    Ambassador Yamamoto. Let me give kind of one introductory 
remark and then go into the discussion.
    So since coming in as the Acting Assistant Secretary, I 
made a concerted effort to talk to all our partners and 
colleagues dealing with the DRC. And the issue is that we find 
it extremely unacceptable that the elections in the DRC has 
taken so long. And the instability that has given rise to 
militias and other groups because they have been emboldened by 
the lack of political uncertainty.
    We talked to the African Union, the FARDC and the European 
colleagues, the donors, and the issue comes in is that by 
holding Kabila and the opposition accountable, but mostly in 
this case, President Kabila, that he doesn't have political 
space, to maneuver, to escape, to delay, but that he has held 
focus, that you will have elections.
    The other issue too, is I know we discussed with the 
opposition one of the areas was that they wanted to look at the 
transitional government. We said no, under the Constitution and 
under the Saint Sylvestre Agreement that Kabila will be there 
until the new President is elected. That means we will hold 
Kabila responsible and accountable to instituting, implementing 
the agreements, and according to the Constitution, the process 
for election of the President.
    Ms. Bass. Yeah, I just wonder what we specifically do. I 
mean, I understand we talked to AU, we talked to FARDC but, you 
know, what measures do we specifically take?
    Is there something we would hold back? What do we do?
    Ambassador Yamamoto. I think on a broader scope by having 
the Africans and the Europeans committed and focused, that, you 
know, puts on President Kabila the onus that he has political 
stake, he has to implement, he has to be committed to doing 
this, and that there is no alternative or no ability to delay 
that process.
    Ms. Bass. Well, yes, although he has delayed it.
    So you mentioned also that there were sanctions that were 
prepared, and I was wondering what kind of sanctions. And then, 
you know, that we are looking at legislation, and I wanted to 
know what your thoughts were about that?
    Ambassador Yamamoto. Everything has to be on the table. And 
as you know, we did implement targeted sanctions, OFAC 
sanctions on six specific individuals. And sanctions are on the 
table.
    Ms. Bass. And so if we target the specific individuals, 
what are we sanctioning them for? They can't come to the United 
States?
    Ambassador Yamamoto. And their assets, they----
    Ms. Bass. Do they have assets here?
    Ambassador Yamamoto. Assets not only here, but in other 
countries. By doing it on the banking institutions, that helps 
restrict their operations. It is something similar that we have 
done in other countries and to other individuals. So that's on 
the OFAC side. The other issue, too, is we can look at limiting 
their ability to come to the United States, through visa 
processes. We can also look through, with the United Nations 
and on U.N. sanctions, and also build on that through sanctions 
from the European Union as well.
    So it has to be a very concerted effort----
    Ms. Bass. When we do sanctions like that on the 
individuals, because I know that some of these folks--I don't 
know specifically about the group you are talking about, but 
some of them have children here----
    Ambassador Yamamoto. Yes.
    Ms. Bass [continuing]. Going to our universities.
    Ambassador Yamamoto. Yes.
    Ms. Bass. Do our sanctions ever refer to that?
    Ambassador Yamamoto. Sanction is only on the specific 
individual.
    Ms. Bass. It is not like on a family, per se?
    Ambassador Yamamoto. For instance, I mean, hypothetical, if 
an individual is thinking, because they have gotten ill-gotten 
assets, let's say the Kleptocracy Act, then that obviously 
would affect the family members, because they can't access the 
banking institutions and to get money out, because those are 
ill-gotten assets.
    Ms. Bass. Do we ever say their families can't come here?
    Ambassador Yamamoto. It depends on if they have been 
targeted.
    Ms. Bass. Yeah, I understood on the financial part, but I 
was just--because I know that one of the strategies that is 
used is that their relatives are not in the countries. When all 
of the strife is happening, their individual families are 
protected.
    Ambassador Yamamoto. Yes, and you raised a very good point, 
Congresswoman Bass, and that is something that we are 
discussing separately, but the issue comes in is family 
members--in one country where family members are living outside 
of the country benefiting from ill-gotten assets.
    Ms. Bass. Right.
    Ambassador Yamamoto. Those people as well----
    Ms. Bass. Right.
    Ambassador Yamamoto [continuing]. Cannot access, not only 
the banking facilities, but also any of the benefits from those 
assets so they, too, will be under those sanctions.
    Ms. Bass. Because one thing that we do is that we allow 
folks to come here and buy real estate and all sorts of things. 
They are living well.
    Ambassador Yamamoto. And, again, the way we do the targeted 
sanction, it has to be very negotiated, it has to be looked at. 
We can't go into who we are considering for sanctions, but just 
it is generally that everything is on the table for discussion, 
and the breadth and the depth of those sanctions.
    Ms. Bass. Now, on our end, do we have an Ambassador?
    Ambassador Yamamoto. We have not had one since December of 
last year.
    Ms. Bass. And is there one in the pipeline that just hasn't 
been confirmed?
    Ambassador Yamamoto. There is one but I defer to the White 
House personnel system. And----
    Ms. Bass. I understand that you defer for the specifics, 
but do you know if the person is waiting Senate confirmation?
    Ambassador Yamamoto. I am not at liberty to say; it is, 
again----
    Ms. Bass. It is a secret?
    Ambassador Yamamoto [continuing]. This would be for the 
White House personnel.
    Ms. Bass. Okay. You said that we are really looking at the 
case of the two murders.
    Ambassador Yamamoto. Yes.
    Ms. Bass. And so I wanted to know what that meant? What are 
we doing?
    Ambassador Yamamoto. We have an American citizen----
    Ms. Bass. One was an American.
    Ambassador Yamamoto. American. But that doesn't matter 
because both of them were part, they are investigating the mass 
atrocities that have taken place.
    Ms. Bass. Right.
    Ambassador Yamamoto. Their work is important to us. As part 
of the process, we are coordinating looking at investigations, 
pushing the United Nations, pushing operations, pushing the 
DRC.
    Ms. Bass. Are they doing--Who is doing the investigation, 
by the way? Is the DRC doing it, or is it an international 
investigation or----
    Ambassador Yamamoto. We have said everyone is going to be 
participating in the investigation, because this is a priority 
for the United States to look at who were involved in the 
murders, and to hold those people accountable.
    One thing is that we supported the U.N. Secretary General's 
recent employment of Robert Petit of Canada to head a team that 
will assist in the national investigation into the deaths of 
Mr. Sharp and Ms. Catalan. And then, we are looking at other 
means and methods to help those investigations.
    Ms. Bass. Also on our end, I know that we were talking 
about the peacekeeping troops, but we pushed for a rather deep 
reduction in the troop levels.
    Ambassador Yamamoto. Right.
    Ms. Bass. So how does that work? Because I think you were 
saying--was that you, Ms. Anderson? Were you talking about the 
real need for troops but yet we propose cutting them back?
    Ambassador Yamamoto. Right. So Ambassador Haley, in her 
trip to the DRC, one of the issues was focusing on peacekeeping 
missions that are fit for purpose, and I think that was the key 
word, fit for purpose. And so if we look at MONUSCO, it is 
probably one of the largest and longest serving peacekeeping 
operations for the United Nations. And so the issue comes in, 
how do you make those more efficient, effective, targeted?
    On the one hand, yes, I know that Ambassador Haley had 
raised the issue of the Burundi refugee being killed by the 
FARDC troops, how did MONUSCO respond or not respond? How about 
the intervention battalion, Tanzania's troops, et cetera, it is 
not enough to target and to go after all of the problems that 
are in----
    Ms. Bass. I was just referencing, didn't we ask for a 
reduction?
    Ambassador Yamamoto. Yes.
    Ms. Bass. But yet, we said more were needed, so I didn't 
understand why we asked for a reduction?
    Ambassador Yamamoto. Okay. So I think right now currently, 
it is to assess the effectiveness of MONUSCO, looking at, do we 
have the right mission set and that it is fit for purpose, 
according to what Ambassador Haley----
    Ms. Bass. I see. So there might be fewer, but you are 
saying it might be more specific.
    Ambassador Yamamoto. Specific and targeted.
    Ms. Bass. And you were mentioning--and I believe this was 
Ms. Anderson--was mentioning the electoral assistance that we 
have provided over the years. You gave quite a span of years. 
And I was just wondering what we are doing now, specifically 
how much, and what does it mean that we provide electoral 
assistance?
    Ms. Anderson. I mentioned that we have been providing 
assistance since 2013 in preparation for this, this election 
that is coming up. So it is not just the 1 day of the election, 
but it is a process. And so, our $37 million in funding is for 
those five components that I mentioned. And a lot of it has 
been in process because we had been working on things like 
voter and civic education, so that the people know what to 
expect, how to get involved in elections, working with 
political parties.
    Ms. Bass. So just to understand kind of specifically, 
because I certainly----
    Ms. Anderson. Sure.
    Ms. Bass [continuing]. Understand it in the abstract. But 
specifically, do we fund a U.S. NGO or DRC NGO that goes in 
villages and sits down and talks to people? Is that an example? 
And given that voter registration is really behind, are we 
doing anything, and if we are, specifically, if you can give an 
example of a project that we fund and what they do?
    Ms. Anderson. Sure. That is really important now because we 
have to keep adjusting. Now we have a date, so that that means 
that we can put a number of things into motion toward the date 
of the election. But I can talk about, for example, the civic 
and voter education component of our program.
    This is--we have invested $19 million in this program. It 
is implemented by Counterpart International, and they work with 
38----
    Ms. Bass. Is that a U.S. company?
    Ms. Anderson. Yes. It is working with 38 different 
Congolese civil society organizations. That is how we are 
helping to build a local capacity so that those organizations, 
now, they inform the citizens. They work with the citizens to 
talk about the electoral process, what are your rights as a 
voter, what is your role as a voter, what do you need to do to 
get involved. And they also have a specific component on 
peaceful participation.
    Ms. Bass. Is it a consulting firm?
    Ms. Anderson. Counterpart International is a--I think it is 
a--I may have to get back to you. It may be a not-for-profit 
organization.
    We have the four other components. I would like to mention 
the component on elections observation, and that is one of our 
few direct awards to a DRC-based organization with----
    Ms. Bass. Is it NDI and IRI or that comes out of another--
on our part?
    Ms. Anderson. We have--NDI is involved in the component of 
our assistance that we call political party training.
    Ms. Bass. And then you fund DRC group to do the 
observation?
    Ms. Anderson. Right. So they coordinate a number of 
Congolese groups to do the observation. And this is the 
Episcopal justice and peace organization in DRC.
    Ms. Bass. So given that now we know the election is 
December of next year, is more money needed? Or because these 
elections have been stalled, have you been holding onto the 
dollars in anticipation that one day we get a date?
    Ms. Anderson. Yes. We are hustling now to have a look at 
what we have, but we had extended our awards into 2018 and 
2019. And at this point, I think we may have to make some 
adjustments to get us through that period through the period of 
the elections. But for the most part, we had done extensions to 
the programs to allow us to continue into 2018, potentially 
2019.
    Ms. Bass. Thank you. I yield back.
    Ms. Anderson. It is a long process, so it is not just the 
election.
    Ms. Bass. Especially when you don't know----
    Ms. Anderson. Yes. And then we hope that they stick to the 
date too. We have to hold them to that.
    Mr. Smith. You know, as you realize unmet need, if you 
could advise our subcommittee--I know you'll be advising 
hopefully the Appropriations Committee as well--so that we can 
try to meet that need.
    I yield to my good friend and colleague, Dan Donovan.
    Mr. Donovan. Thank you very much, Mr. Chairman.
    I just have one question for both of you. Maybe, Mr. 
Secretary, you can speak about the election process, and maybe, 
Ms. Anderson, you can talk about our humanitarian efforts. We 
are a passionate Nation, particularly when it comes to both 
democracies and humanitarian efforts. We are also a very 
compassionate Nation. How do we see our role, the United 
States' role in the government of other countries? There is a 
lot of talk about other countries' influence on our election 
process here in the United States. Now we are talking about 
maybe United States involvement in the elections in another 
country.
    I was just wondering how do we define our role or what do 
we see as proper, and for the humanitarian efforts, in a 
country I am not sure that they are cooperative with USAID's 
efforts to help people, but we as a Nation reach out to those 
folks in the rest of the globe who are suffering, and sometimes 
their countries or their government might not appreciate our 
efforts and may see what we are trying to do in humanitarian 
environment as trying to influence their people in other ways. 
I was just wondering if you can just give me some background on 
that.
    Ambassador Yamamoto. So our role in the political process, 
we don't take winners, losers, and we are not addressing or 
advocating for any candidate. What we are doing is that these 
are agreements, the Constitution of the DRC and the Saint-
Sylvestre agreement of 2016 negotiated by the Catholic church, 
which both the government and the opposition signed. What we 
are doing is holding both parties accountable and committed to 
what they had signed.
    And for 4 years I led peace talks and negotiations in the 
Congo, and everywhere I went, the United States stands as a 
symbol that we are going to work for what the people of Congo 
want, and they demand an election, a credible, free, fair, open 
election. And in that context, we are going to support the 
people of the Congo to say, yes, we are going to--we are behind 
you, we are going to hold the government and the opposition 
accountable to do these electoral processes in 2018.
    Mr. Donovan. Mr. Secretary, do we do that as a Nation? Are 
we doing that as a group as the United Nations? How do we do 
that? Does the United States stand alone in doing that or our 
partners at the U.N. assist in that as well?
    Ambassador Yamamoto. Yes. We do that in the context of 
negotiations with the donor community, the United Nations, but 
also the African unions and also local communities within the 
Congo and also the various groups.
    Mr. Donovan. Mr. Secretary, Ms. Anderson, can you speak 
about our humanitarian efforts?
    Ms. Anderson. Yes. We always do our best to respond to 
humanitarian crises wherever they are. In the DRC, we have a 
very challenging environment. We work closely with the U.N., 
with other bilateral and multilateral development partners, 
with international and local NGOs. We always have to coordinate 
our efforts. We always encourage the government--we need their 
cooperation, and we always encourage them to do increasingly 
more to respond to humanitarian crises. This is a tough one in 
the DRC, and I can say that we--we are a major donor in 
humanitarian assistance in sub-Saharan Africa, and that 
includes the DRC. So many of the other players look to us to 
play a leading role.
    And I would just conclude by saying that, once again, this 
is a very challenging environment, and it is very difficult for 
us to kind of get ahead of this situation, as well as to decide 
what to do because it is a dangerous environment for our 
humanitarian work.
    Mr. Donovan. And when you say we are a great donor, is that 
just in financial resources? Is it in human resources? What is 
our actual presence there?
    Ms. Anderson. We have--we have personnel on the ground who 
work on humanitarian assistance, and we work with local and 
other international organizations, especially the United 
Nations, to deliver humanitarian assistance in the form of food 
assistance, emergency health assistance, other types of relief 
supplies. And also one thing we work on is the protection of 
citizens, especially children in dangerous situations.
    Mr. Donovan. And my last question, do you find resistance 
in the DRC from the efforts that you have just described?
    Ms. Anderson. I would say that one of the biggest 
challenges is a question of the will of the government to move 
forward on its commitments. In the December 31 agreement and 
also their--the fact that we have such a dangerous environment 
that with violence and human rights violations makes it very 
hard for us to do our humanitarian work.
    Mr. Donovan. I thank you both.
    Mr. Smith. The chair recognizes the gentleman from 
Virginia, Mr. Garrett.
    Mr. Garrett. Thank you, Mr. Chairman, and thank you for 
convening this important meeting. It is interesting as a 
freshman member of this committee to sort of do the learning 
curve on Africa in particular, and certain trends have emerged 
in my observations.
    But first, let me thank our panelists, Mr. Chairman. Mr. 
Yamamoto's service goes all the way back to oversight of the 
tragic events in Tiananmen Square, and Ms. Anderson served, and 
I will thank you for your service in the Peace Corps, putting a 
good face on America for the remainder of the world and I think 
an investment that a lot of my colleagues undervalue as it 
relates to return on investment (ROI) and the opinion of 
America that people across the world who might otherwise only 
get that opinion from mass media have, and that is so 
important, so thank you for that.
    I don't want anybody to break out in laughter when I ask 
this question, but as we work toward hopefully free, fair, and 
transparent elections in the Democratic Republic of Congo, what 
can we say we are doing to ensure that the Chinese influence 
over the electoral process doesn't tilt the scales in the 
direction that would be to the benefit of the Chinese? And that 
is an open question.
    Ambassador Yamamoto. Thank you very much, Mr. Congressman. 
You know, we have looked at the--in our coordination with the 
international community--and we do hold annual discussions with 
the Chinese specifically on what they are doing in Africa. And 
we are trying to steer not only China, but all these countries 
to play a helpful, supportive role. The other area too that we 
have concerns is, of course, the exploitation of resources in 
eastern Congo.
    Mr. Garrett. That was my next question.
    Ambassador Yamamoto. That is the area that we have been 
working on very long and hard, is that the people of the Congo 
need to benefit from the resources. There has to be a rational 
process in whereby you develop these resources. And one of the 
things is that, you know, looking at your question, is that we 
do discuss the Chinese on a whole spectrum and aspect. And not 
just China; it is all the other countries that are involved, 
positively and negatively, in the DRC.
    Mr. Garrett. Ms. Anderson, if you want to, and if you don't 
want to, then I will keep going.
    Ms. Anderson. I guess I would just say, if you are 
referring to the elections and our involvement related to the 
Chinese, we are focusing on local capacity, and we are working 
so that the Congolese can be prepared to participate in their 
election and hold their own government accountable so that they 
can start to be able to find their own future. And that is the 
role that we are playing in the elections, and it is quite 
different from the Chinese.
    Mr. Garrett. Right. And so that is something that is 
noteworthy here as we as Americans recognize that perhaps 
American, dare I say, overreach globally has manifested itself 
in ways that we didn't anticipate, that there are certain types 
of aid that are greatly appreciated and others that are taken 
because they are aid, but that come with a backlash, if you 
will. There is a vacuum, I think, inherently created, and the 
Chinese are all too happy to fill it. Pardon me, I am going to 
do soliloquy for a second here.
    I have not spent a ton of time on the ground in Africa, but 
I did speak to a ranking member of a North African country 
wherein the entire presidential palace that I would say 
probably rivals the Cannon House Office Building in square 
footage was built by China. They built a palace. And when you 
get off the airport, and you served in Addis Ababa in Ethiopia, 
which is a dynamic country where if we get it right, great 
things will happen, and if we don't, tragic things will happen, 
you almost feel like you are in a Chinese annex. And the 
Chinese record of exploitation of individuals is apparent even 
from 2007 in the DRC as it relates to exploitation of child 
labor, as it relates to the monopolization of the mineral 
deposits in DRC in particular, which if properly levied, should 
make the DRC one of the most prosperous nations on the planet. 
The Chinese efforts are historically and demonstrably toward 
ensuring a Chinese access to things like tungsten and tantalum 
and coltan and cobalt that have manufacturing applications in 
anything from lithium-ion batteries to jet engine components.
    And I get it, except what we are trying to do is empower 
the people in the DRC to be the leaders to the people in the 
DRC, and without a combative tone, and understanding that there 
is a global economic struggle afoot and the Chinese are 
extraordinarily strong competitors therein, how do we ensure 
the power in Congo goes to the Congolese, that our monies that 
are spent aren't converted by way of Chinese exploitation of 
stability that we helped create to enrich the Chinese at the 
expense, literally, of the poorest and weakest people in places 
like the DRC? I am asking for suggestions because I don't know 
the answer. Understanding that we don't want to take a 
combative stance, but my primary function on this committee is 
to the extent that it is relevant and possible for the United 
States to create a better circumstance for human rights to do 
so. How do we do that without empowering the Chinese to 
continue exploitative practices?
    Ambassador Yamamoto. I think that is a very difficult 
question and a very complex situation. The issue is that we 
talk--it is not just the Chinese, but it is a lot of countries, 
outside countries, it is a lot of regional states as well that 
is exploiting those resources. And of course, our effort is to 
make sure that we monitor, we hold people accountable, and we 
look at how these resources are being distributed, and find 
mechanisms and ways that the people of the Congo can benefit 
from those resources.
    In our annual discussions--since your question is on 
China--that we do have--we are coming up to another annual 
discussions with China to see where they can play a helpful 
role. In the past, they have done an engineering battalion in 
south--in Sudan. They have done road construction to AID and 
U.S. projects. So looking and seeing where we can have areas of 
commonality and then areas where we do not is how do we make 
sure that it is beneficial to the people in Africa.
    Ms. Bass. Will the gentleman yield?
    Mr. Garrett. Yes, absolutely. My colleague from California, 
Ms. Bass.
    Ms. Bass. Thank you very much.
    You know what, one of the things I wanted to say in terms 
of China's involvement, I really want to see more involvement 
from our companies, you know. And one of the areas that I am 
really interested in is promoting our companies in the U.S. to 
get involved in infrastructure. China is famous for building 
roads in Africa, and it is a real mixed bag in terms of--what 
did you say?
    Mr. Smith. Not so good roads.
    Ms. Bass. Exactly. Not so good roads. But, you know, we 
certainly know the quality of our companies. And so I would 
really like to work with you in the future in ways that we can 
establish partnerships to promote U.S. business involvement, 
because I am distressed by the Chinese involvement as well, but 
I think one answer to it is to step up ours.
    Mr. Garrett. I think--I would thank the Congresswoman and 
sort of pile on there. We have spoken just a couple of times, 
and I would think originally with regard to oppressed 
minorities in Africa, and I look forward to working with the 
Congresswoman. It strikes me that the Chinese infrastructure 
created in Africa almost always heads from the natural resource 
to the ports. Go figure. But it is, at some level, a national 
security situation for our Nation as it relates to rare Earth 
minerals, et cetera. And, again, there is a role for this 
country to play in perpetuating basic human dignities and 
freedoms and expectations. We could spend another entire 
hearing on alleged abuses by U.N. peacekeeping forces.
    Mr. Smith. And we have. Four of them. So it is a real 
problem.
    Mr. Garrett. Well, it is tragic, right? To paraphrase 
President Reagan, I am from the U.N., and I am here to help, 
and it gets worse. And so that doesn't mean we should throw up 
our hands and stop trying. But when we have people of your 
caliber with your experience, you know, again, within the 
appropriate role and purview of the U.S. Federal Government, we 
need to care about human beings across the world. And a 
prominent foreign leader said to me, look, if the Chinese will 
help us and there are strings attached, it is still help. And 
if we withdraw and create a vacuum, somebody is going to fill 
it.
    But the challenge here is how we are good stewards, work 
within the appropriate realm of what is federally allowable in 
this country, and then don't subsidize bad outcomes. And that 
is what frustrates me. And in no way, shape, or form am I in an 
adversarial tone from you two fine people. It is that I want to 
hear--we have these hearings, we talk, it feels good, but what 
are the answers?
    And so I think Congresswoman Bass and I are on the same 
page there, but there are opportunities to be had. If a 
corporate entity wants to make money, that is fine, but if they 
help people while they are doing it, it is even better. And so 
how do we do that? How do we invest? How do we ensure that our 
investments aren't undergirding those who are our geopolitical 
rivals, economically and potentially militarily? And how do we 
do so without victimizing people who have a 200-year history of 
being victimized by outsiders?
    Ms. Bass. Here, here.
    Mr. Smith. Before we go to our next panel, just very 
briefly, I would point out that my good friend, on one trip to 
Kinshasa, I will never forget, I had dinner with--so did Greg--
with a member of Parliament who also has a farm, and he said, I 
can grow anything. I really loved his attitude, and he showed 
me his farm. He can grow anything. I can't get it to market. 
There is no roads. There is no bridges. There are very few. And 
the Chinese have come in and in a quid pro quo in a fleecing of 
DR Congo, which they have done elsewhere in Africa, they have 
gotten minerals, wood, all kinds of commodities at unbelievably 
discounted prices for those roads and bridges.
    We have the Foreign Corrupt Practices Act. It precludes, it 
holds accountable those who engage in bribery and other corrupt 
practices. China has no such law. So we know that corruption is 
a very serious issue here, and the Congolese are not getting 
anywhere near what they should be getting for what they give to 
China in exchange for those roads and bridges. So we need to do 
much more on trying to ensure that our friends and allies who 
are truly democracies with something like the Foreign Corrupt 
Practices Act sell, but especially the United States.
    I do have one final question of many, but I will just 
finish with this.
    Mr. Garrett. Mr. Chairman, if I can interrupt. I apologize. 
And thank you for yielding.
    The first thing we can do is tell the world that the 
Chinese are exploiting people.
    Mr. Smith. Exactly.
    Mr. Garrett. And again, I don't have a problem with Chinese 
corporate entities, I don't have a problem with them building 
the roads, but they are--"fleecing'' is a great word.
    Mr. Smith. It is. And I say to my friend, we have had 
several hearings on that kind of corruption and that, really, 
exploitation of African resources on their way to Ghana. There 
are many, many countries. And unfortunately, it doesn't get 
covered by the press. We hold these hearings. We put in 
resolutions. We get bills passed. And it is not even on page 
15. So that is very discouraging, but we have got to do it 
anyway because we have got to do what is right. But I thank my 
friend for raising that.
    My question would be, the U.N. 2017 humanitarian plan is 
now running for this year at about 42 percent. My question is, 
are the U.N. needs assessment accurate? Do we believe that we 
have confidence that they have a real handle on what is needed 
to be done to mitigate disease, death, mortality from things 
like hunger and illnesses? And secondly, what does a near 60 
percent underfunding of the U.N. for the DRC mission mean to 
women and children in vulnerable populations?
    Ms. Anderson. Mr. Chairman, we always have some involvement 
when the U.N. is doing their assessments because we are very 
engaged with them on a day-to-day basis. By the same token, we 
look at the assessments with a critical eye, based on our 
knowledge of the situation on the ground. And the reality is 
that often the requirements are much higher than what we all 
together can meet. So it means that we always have to 
prioritize. And that is what we are constantly doing, is 
prioritizing and looking at what we can provide, what is the 
highest priority that is really going to make the most 
difference.
    The United States will always be there for people in need. 
Our resources are not unlimited, so it is very important for us 
to prioritize, and that is why it is important for us to have a 
good assessment of what the situation is on the ground.
    Mr. Smith. I thank you. I would just point out that I have 
chaired hearings in the past, a number of them, about the mass 
exodus of people from the Middle East. And once they got to 
refugee camps, usually in the auspices of the UNHCR, 
particularly those with longer stays found more gross 
underfunding, including the World Food Program, which massively 
cut their allocation, but it was order of magnitude about 40 
percent of what the U.N. assessment was for those, and that is 
why they uprooted and left and flocked into Europe and 
elsewhere because they saw no future. There was no education 
opportunities and certainly there wasn't enough food, clothing, 
and shelter to meet their very legitimate needs.
    So, you know, for the international community to go cheap 
on refugees and IDPs is a very bad bargain first and foremost 
for the victims, but secondly, because they are going to move 
somewhere else. They have to because they care for their 
families. And I thank you again for your great leadership and 
for your testimony today.
    Ambassador Yamamoto. Just one quick comment. So we agree 
with you, Mr. Chairman, it is excellent. I want to make one 
comment on what Congresswoman Bass had said, and the point is 
that I don't like to play defense, I like to play offense. And 
one of the offensive issues is, is that we need to get more 
American companies. And how do we encourage American companies, 
and the area, of course, is risk insurance and financing and 
other support. And our Embassies are supporting 100 percent, 
and we are looking at means and mechanism. So we are going to 
continue to do that, Madam Congressman.
    Ms. Bass. Thank you.
    Mr. Smith. Thank you.
    Mr. Smith. I would like to now welcome our second panel 
beginning first with Mvemba Dizolele, who is a writer and 
foreign policy analyst and independent journalist, and a 
veteran of the United States Marine Corps. Mr. Dizolele was a 
grantee of the Pulitzer Center on Crisis Reporting and covered 
the 2006 historic elections in the Democratic Republic of 
Congo. With the Pulitzer Center he produced ``Congo's Bloody 
Coltan,'' a documentary report on the relationship between the 
Congo conflict and the scramble for mineral resources. He 
served as an election monitor with the Carter Center in Congo 
in 2006 and again in 2011. He was also embedded with the U.N. 
peacekeepers and Congo's District South Kivu province as a 
reporter. He has testified before various subcommittees in both 
chambers. And again, we welcome him here today.
    We will then hear from Mr. Fred Bauma, who is with an 
organization known in English as the Struggle for Change. This 
nonviolent, nonpartisan civil society movement was founded in 
June 2012 in Goma, the capital of North Kivu in DRC. The 
movement campaigns for social justice and accountability in the 
DRC and encourages Congolese citizens to push for the promotion 
and respect for human rights. Mr. Bauma was arrested in March 
2015 but was later released. He currently resides in the United 
States.
    We will then hear from Severine Autesserre, who is a 
professor of political science, specializing in international 
relations and African studies at Columbia University. She works 
on civil wars, peacekeeping, peace building, and humanitarian 
aid. Professor Autesserre's latest research project has landed 
successful international contributions to local embodiment 
peace building. Her earlier research progress focused on 
violence and international intervention in the eastern part of 
the Democratic Republic of Congo, where she has traveled 
regularly since 2001. Her field work and analysis culminated in 
``The Trouble with Congo: Local Violence and the Failure of 
International Peacebuilding'' published by Cambridge University 
Press in 2010.
    And then we will hear from Ida Sawyer, who is the Central 
Africa director for Human Rights Watch. She has been based in 
Congo since January 2008, first in Goma since 2011, and in the 
capital of Kinshasa. In August 2016, Congolese authorities 
barred Ms. Sawyer from continuing her work in the country 
following a series of human rights publications by Human Rights 
Watch on political repression. She is now based in Brussels 
where she oversees Human Rights Watch's work in Congo, Rwanda, 
and Burundi. Ms. Sawyer has conducted research across Congo and 
in areas of Northern Congo and in neighboring countries 
afflicted by the Lord's Resistance Army, and her research has 
been integral to numerous human rights reports and has informed 
the world about what has been going on.
    If I could, Mr. Dizolele, if you could begin.

  STATEMENT OF MR. MVEMBA DIZOLELE, PROFESSORIAL LECTURER IN 
  AFRICAN STUDIES, SCHOOL OF ADVANCED INTERNATIONAL STUDIES, 
                    JOHNS HOPKINS UNIVERSITY

    Mr. Dizolele. Thank you, Mr. Chairman.
    Thank you for the invitation and honor to testify before 
you, Mr. Chairman, Ranking Member Bass, and the distinguished 
members. The views I express today are mine and mine alone. 
With your permission, sir, I would like to submit my remarks 
for the record.
    Over the years, I have proudly provided my analysis of 
developments in Congo to several subcommittees in both chambers 
of this august Congress. Today, however, I beg for your 
indulgence. I do not wish to speak as an academic, journalist, 
analyst, or fellow. I want to speak as a human being talking to 
other human beings. I would love to speak plainly, no academic 
speak, no diplomatic jargon. In other words, what I want to say 
is that Kabila must go.
    The responsibility for the suffering of the Congolese 
people rests with one man, Joseph Kabila, which he shares with 
a small and shrinking cadre of associates and family members. 
Over the last 16 years, this group has captured the state with 
total impunity at the expense of the people.
    A series of reports, including those from the Carter 
Center, the Panama Papers, the Lumumba Papers, the Paradise 
Papers, Bloomberg News, and the Congo Research Group have 
documented and exposed the wide extent to which DRC's natural 
and financial resources, estimated in billions of dollars, have 
been diverted to benefit this small group.
    The Kabila regime has been characterized by three things: 
Looting, plunder, and deadly violence. We have tolerated this 
for too long. It is time for a new leadership. Again, Kabila 
must go.
    Kabila's biography is a Cinderella story with a bloody 
twist. Kabila, having grown outside Congo, showed up in Congo 
for the first time at the age of 26 during the war that 
eventually vanquished the late President Mobutu Sese Seko. When 
his father took over a year later, he made his son a two-star 
general and appointed him chief of staff of the armed forces, 
the ground forces, that is. Four years later, after his father 
was assassinated, the younger Kabila became President.
    The Congolese disapproved. Most of the Congolese at least 
disapproved of the father-to-son succession, but the 
international community fully embraced him with total 
diplomatic, financial, and political support.
    Donors initiated a number of projects to help Kabila end 
the war that he inherited from his father. This initiative 
included Sun City Accord, the Transition, the Constitutional 
Referendum, and the 2006 election. On the security front, the 
world raised the largest peacekeeping force--or peacekeeping 
mission to help Kabila buy time and build an army. The World 
Bank remitted the debt at the tune of about $13 billion, again, 
to help him start a new economy. And then the World Bank also 
wrote a new mining code, but eventually Kabila will misuse that 
mining code to trade his power for financial and political 
gains.
    So we were really determined, the world that is, to make 
Kabila a success, and nothing could derail what he had started. 
We then arrested his main opponent, Jean-Pierre Bemba, to get 
him out of the way so that Kabila will succeed. Unfortunately, 
Kabila did not succeed. He himself set out to undermine the 
political gain and the democratic gain of the country. Despite 
the legitimacy that he had achieved, he wanted to change the 
constitution, eventually leading the country in 2011 in highly 
contested and botched elections.
    So despite this goodwill, Kabila has not succeeded. Since 
then the country has gone from crisis to crisis to crisis. When 
we confront Kabila and his associates about the abysmal record, 
they typically blame everyone and everything, from the weather, 
the political position, Rwanda, Uganda, Angola, the youth, the 
United States, and the militias. Everybody except themselves. 
Nobody ever takes responsibility for actions in DRC, and the 
government definitely never fires anyone, and nobody ever 
resigns.
    So even by the standards of Central Africa's dysfunctional 
states, the Kinshasa regime stands alone in its mediocrity. 
Unlike his peers in the region, Kabila has no political base 
and is so unpopular that he cannot face his fellow citizens and 
explain why he should stay in power. Every time he has made an 
attempt to stay longer, he has faced stiff resistance from the 
population, so his government has decided to simply not fund 
and organize the elections. His action has only emboldened the 
Congolese to demand that he leaves office.
    So I believe that we should not be, as the government seems 
to propose today, blissfully naive about the decision that we 
will be holding the election next year by December. The record 
stands for itself. It has been 16 years. I don't have to go 
further into this. But I just want to say that, internally, 
Kabila has no good options. He has tried everything: Subvert 
the Constitution, kill protestors, jail everyone. The 
international community has helped him. He has failed. The only 
option that he has is to rely on military force and bloody 
repression. We have already seen too much of that.
    So at this point, in fact, the Congolese see him as an 
illegal, illegitimate, and unconstitutional President, which he 
is. They are already referring to him as the former President. 
So should we.
    Outside DRC, Kabila and his associates are spending lots of 
money to launder his image and fend off the pressure. They have 
hired Mer Security and Communication Systems, an Israeli firm, 
to represent their interests in Washington, DC, for nearly $6 
million. This is in a country where civil servants, nurses and 
doctors are on strike because they are not being paid, nurses 
and doctors, yet the government is spending over $6 million in 
lobbying efforts.
    A year after Kabila's mandate expired, we tried to give him 
another year. That is way, way too long that anybody practical 
should accept. It is unacceptable. Kabila must go. The longer 
he stays in office, the greater the risk for violence and 
instability.
    My recommendation is that this body and the Government of 
the United States should impose sanctions on Kabila and his 
family and his inner circle, who have been imposing sanctions 
on people who are totally irrelevant: Generals, ministers of 
information. That is not going to work. Kabila is the obstacle. 
He should be held accountable.
    We have spoken to Kabila for a long time at the highest 
level of this Government of the United States. President Obama, 
Secretary Kerry, Secretary Clinton, Senator Russ Feingold, Tom 
Perriello, they have all engaged Kabila in the nicest of ways 
that most dictators would have wished for, and he is not 
adjusted.
    We should impose sanctions on Corneille Nangaa, the head of 
the Independent National Electoral Commission. His delaying 
tactics fuel the tensions and pose even a greater risk for 
stability. Many of you have met Corneille Nangaa. He is really 
convinced in his own bubble that what he is saying makes sense, 
but all of us know that what he says most of the time is 
incoherent and nonsensical.
    In fact, Corneille Nangaa has retained a lobby firm, Reset 
Public Asset, LLC, to represent him in Washington, DC, for a 
monthly fee of $30,500, to represent him ahead of an electoral 
commission. The Madison Group, LLC, represents the Independent 
National Election Commission for a fee of $25,000. This is a 
red flag.
    The message here is that the Electoral Commission and its 
President care more about what the U.S. Government thinks or 
does, while showing utter contempt for the Congolese opinion. 
While they almost never meet the Congolese opposition to update 
them on the electoral process, they are spending millions of 
taxpayer dollars both in the U.S. and in Congo on frequent 
travels and on expensive lobbying efforts in Washington, DC. 
This again is unacceptable. Corneille Nangaa should be held 
accountable. He should be put on the sanction list.
    The U.S. Congress, this august body, has been holding 
hearings for DRC for years to little effect on the ground. I 
feel that we are all accomplices, and unless we act, these 
hearings will remain but abstract academic discussions. Your 
committee, your subcommittee has been considering legislation 
on DRC for 6 months. Now is the time to show resolve and roll 
out that legislation forcefully and more strong--much more 
stronger.
    I think I will stop here and wait for Q&A. Thank you very 
much.
    [The prepared statement of Mr. Dizolele follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
                              ----------                              

    Mr. Garrett [presiding]. Thank you. I was reading your bio, 
and I think that you probably speak more languages than the 
rest of the room combined, which is unusual for a Marine. I was 
an Army guy. So thank you.
    Without objection, the full remarks of all witnesses will 
be entered into the record without request, but I thank you for 
that. And we have votes coming up relatively quickly, but I 
want to get everyone's testimony in if we can, so I would ask 
you all to continue.
    And, Mr. Bauma, we would welcome your comments.

 STATEMENT OF MR. FRED BAUMA, REPRESENTATIVE, LA LUTTE POUR LE 
                           CHANGEMENT

    Mr. Bauma. Thank you, Mr. Garrett.
    Mr. Chairman, Ranking Member Bass, members of the 
committee, thank you for inviting me to speak about my country, 
the DRC. I hope to share some insights that you will find 
valuable.
    On Monday, October 30, Jotham Kasigwa, Justave Kambale, 
Jean Louis Kikandi, and Remy Mulwana, and Obedi Mumbere, all 
under 20 years old of age, were shot by Congolese National 
Police and the military police while demonstrating peacefully 
in Goma. Those demonstrations were called by the Civil Society 
Coalition, including the Struggle for Change (LUCHA).
    The aim of these demonstrations was to call President 
Kabila to resign as a consequence of his failure to organize 
the elections, and to respect the timelines in our 
Constitution. It should concern the United States that this 
violent crackdown on peaceful protestors took place so 
blatantly within the week after Ambassador Nikki Haley visited 
the DRC.
    Violent repressions of demonstrators calling for timely 
free and fair elections have escalated as Kabila's willing to 
show contempt of the constitutionally mandated term limit has 
become increasingly obvious. I have personally experienced this 
repression when I spend over 17 months in jail for exercising 
my basic constitutional rights. But my story, unfortunately, is 
not unique.
    Since September 2016, almost 150 peaceful demonstrators 
have been killed, while hundreds more have been arrested or 
kidnapped by security forces, and many of them remain in jail. 
Government officials, including mayors and heads of police in 
some cities, has been recruiting gangs ironically called 
antigang or some other name like Bana Mura. Those groups are 
deployed to arrest and sometimes arbitrarily arrest civil 
society activists and members of the opposition.
    These groups have been responsible for severe human rights 
violations in many places in DRC, and work tightly with the 
national police and the Congolese intelligence service. At the 
same time, journalists are harassed and media outlets are shut 
down. According to a new report by Journalistes en Danger, an 
independent watchdog, the Congolese Government and the security 
forces are responsible for over 83 percent of attacks against 
the media over the last years.
    Even while facing repression, Congolese people are 
repeatedly demonstrating with the same message: The need for a 
peaceful transition by the end of this year as stipulated by 
the CENCO agreement. As Mvemba said, Kabila must go.
    The political repression is an only small part of the 
overall human rights and humanitarian crisis effective--that 
affect millions of Congolese people. Over 4.5 million of 
internationally displaced persons, including 1.5 million in 
Kasai region alone wherein international agencies have 
documented more than 30,000 refugees to Angola, 80 mass graves, 
and over 5,000 civilians killed, and hundreds of schools 
destroyed. In the east of Congo, the regions of Beni, Bukavu, 
Uvira, Tanganyika, and Ituri have been the theatre of the surge 
in massacres and intercommunal violence.
    This grim situation is tightly linked to the political 
crisis originated by Kabila's unwillingness to organize 
elections and his attempt to overstay his power in violation of 
both Constitution and the CENCO-sponsored agreement. This 
agreement granted the government one additional year to 
organize the elections and create conditions for a peaceful 
transition of power. The political uncertainty is causing 
trouble that potentially may undermine the peace and security 
in, not only DRC, but also the region.
    While poverty and misery are increasing significantly and 
the country is collapsing--and the economy of the country is 
collapsing, President Kabila, his family, and his inner circle 
are known to have built a rich empire through illicit means. 
According to reports of different organizations, including the 
Congo Research Group, Enough Project, Global Witness, the 
Carter Center, and more recently the Paradise Papers, Joseph 
Kabila, his family, and both his civilian and military 
entourage are involved in massive looting of natural resources, 
corruption, money laundering, potentially implicating terrorist 
groups. These activities include some individuals and companies 
linked to U.S. citizens and the U.S. financial system that the 
U.S. Treasury could target.
    By refusing to respect the Constitution, by choosing to 
oppress and dismantle the opposition of political parties 
instead of implementing in good faith the CENCO agreement, 
Joseph Kabila has undermined the trust and the credibility 
necessary for any dialogue. Fool play on the part of President 
Kabila is so blatant that it will be a total waste of time to 
push yet for another round of negotiations between Kabila and 
his opposition.
    The routine of endless and now useless dialogues can no 
longer be considered as the only path to sustainable solution 
on the Congo crisis. Further, this government has demonstrated 
again and again that the electoral calendars are a delay 
tactic, an empty promise used to divert attention for the fact 
that the government has no intention to organize the election 
that will remove Kabila from power. This delay tactic is the 
best way to ensure that the election will not be held and that 
if and when they are, they will be rushed in the manner that 
they will neither be free or fair.
    This is a dangerous path for Congo and one that I hope the 
U.S. also wants to avoid. The only sustainable solution lies in 
the immediate resignation of Kabila from the office and his 
replacement by a respected civilian or team that will organize 
the election.
    We the people of DRC are not seeking for pity or charity 
from the U.S. We are seeking your support in our efforts to 
prevent DRC for falling once again under a dictatorship. We are 
prepared to oppose by all peaceful means to a President who has 
violated rule of law as defined by our Constitution.
    There are steps that the U.S. Government can take to push 
for election and democratic transition with a peaceful transfer 
of power: The U.S. should impose direct targeted sanctions 
against Kabila and his inner circle responsible for human 
rights violations, money laundering, corruption, and sabotage 
of the political and electoral process.
    The U.S. should require the U.N. and the MONUSCO to stop 
any kind of support to the Congolese security service, 
including the Congolese army and the police, who are the main 
perpetrators of human rights violations. Any unconditional 
support by MONUSCO to the army or the police is akin to support 
institutions responsible for massive atrocities and human 
rights violations. Instead, the U.S. Government should work 
with the U.N. Security Council to make MONUSCO's mandate more 
effective and precise, allowing it to protect civilians from 
any form of danger, including the one from the government 
officials.
    The U.S. should state without any ambiguity that they will 
not back any electoral process that will not end in free and 
fair elections, organized by a truly independent commission, 
with a credible voter register, and in an environment where all 
participants are free to organize and conduct campaigns and 
rallies, and have access to media, including public media, 
where civil society has a voice where media and judiciary are 
free and independent. None of these criteria are met by the 
Congolese Government, neither by the current CENI.
    Finally, the U.S. and international partners, particularly 
African union, should push Kabila to resign, to allow the 
return to the Constitution, and honor the CENCO deal, and 
vacate the office by the end of this year. Any contact with 
Kabila should aim to effecting his resignation so to allow the 
return to constitutional order.
    Mr. Chairman and members of the committee, I hope that this 
committee and the U.S. citizens understand our hunger for 
peace, for democracy, for liberty, for dignity, and for 
happiness. I hope that you understand, as did the U.S. 
Founders, that whenever any form of government becomes 
destructive to its end, as it is dictated in DRC, it is not 
only the most sacred right of the people to abolish it, it is 
our indispensable duty. Thank you.
    [The prepared statement of Mr. Bauma follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Mr. Smith [presiding]. Mr. Bauma, thank you so very much.
    We do have a vote on the floor, recorded vote on H.R. 2201, 
the Micro Offering Safe Harbor Act. We will take a very, very 
brief recess, subject to the call of the chair, and then we 
will reconvene our hearing. And I apologize for the delay.
    [Recess.]
    Mr. Smith. The hearing will resume.
    Ms. Bass will be returning very shortly for the hearing.
    Let me ask Dr. Autesserre if she could provide her 
testimony. And is that the right pronunciation, Doctor?
    Ms. Autesserre. Almost, yes. Thank you so much.
    Mr. Smith. Okay. Thank you. Put on your microphone, please.

   STATEMENT OF MS. SEVERINE AUTESSERRE, PH.D., PROFESSOR OF 
    POLITICAL SCIENCE, BARNARD COLLEGE, COLUMBIA UNIVERSITY

    Ms. Autesserre. Thank you so much, Chairman Smith, Ranking 
Member Bass, members of the subcommittee, for organizing this 
hearing and for inviting me. My name is Severine Autesserre. I 
am an author and researcher and a professor of political 
science at Barnard College, Columbia University.
    Over the past 2 years, activists, journalists, diplomats, 
and politicians have focused mostly on the political crisis 
around general elections and on the struggle for power in 
Kinshasa. We are so preoccupied with the upcoming elections 
that we are diverting our attention away from the many other 
issues that are causing violence in Congo, and we are wasting 
the opportunity to tackle these other issues.
    Based on 18 years of research on peacebuilding, including 
several years living and working in Congo, I believe, and I 
will show you in my statement, that there is a better way to 
help resolve the Congolese conflict. Congress should revise its 
approach to the Congolese crisis by recognizing that there are 
many other causes of violence beyond the electoral political 
issue and by acknowledging that democracy and peace do not 
always go together.
    The two most important measures Congress can take are to 
increase the United States' support to local and bottom-up 
peacebuilding and to put local actors in the driver's seat.
    The delay in holding elections is only one among the many 
issues that fuel the ongoing violence in Congo. And 
importantly, local conflicts at the village or district level 
also fuel extensive violence.
    So to be clear, yes, national and international leaders 
regularly manipulate local armed groups, including for 
electoral purposes. But at the same time, local combatants use 
national and regional tensions as a way to pursue their own 
specific, local goals. For instance, in North and South Kivu, 
villagers regularly ally with national leaders and with foreign 
militias to get control over neighboring land. As a result, 
Congo needs bottom-up peacebuilding in addition to the current 
top-down approach. And the words ``in addition to'' are very 
important. I am not saying that we should replace the current 
Kinshasa-centered, election-focused strategies with local 
peacebuilding measures. Instead, what I am saying is that we 
should add local peacebuilding to the set of options that we 
currently use to resolve the Congolese conflict. This means 
increasing the United States' support--financial support, 
logistic support, and technical support--to local 
peacebuilding.
    We should also recognize that democracy and peace do not 
always go together. In fact, the push toward rapid elections 
has fueled violence in many other war and postwar environments. 
So, of course, President Kabila should go, and of course 
Congolese people deserve elections and democracy. But in the 
short term, there may be a choice to make between the two goals 
of democracy and peace. And foreign activists and diplomats and 
foreign politicians should not be the ones to make this choice. 
Ordinary Congolese people should.
    And this leads to my last point. Local people have far more 
relevant knowledge, skills, capacity, contacts, and means to 
resolve their own predicaments than we usually believe, and 
more than provincial, national, or international actors will 
ever have. When you look at things that have actually worked in 
Congo, you see that certain local, ordinary citizens have 
managed to create islands of peace--literal islands of peace--
in the Kivus. Others have decreased tensions in Ituri, and yet 
others, like Fred Bauma sitting next to me, have created a wide 
democratic movement at the grassroots.
    The usual international approach is to ignore these kinds 
of local initiatives. Instead, we should support, fund, and 
protect these local initiatives so that we reinforce them. And 
I published a book on how to do that. The book is called 
``Peaceland.'' To summarize it in just one sentence, we need to 
build on local expertise, and we need to involve in the design 
and planning of international efforts not only the elite based 
in Kinshasa, but also local leaders, intended beneficiaries, 
and ordinary citizens.
    So to wrap up, we can help Congo establish sustainable 
peace and functioning democracy, but to do that we have to look 
beyond elections and also support the other peacebuilding 
priorities. We also have to build much more on the expertise 
and capacity of Congolese people--ordinary Congolese people--
and support bottom-up peacebuilding much more extensively.
    Thank you so much. I look forward to your questions.
    [The prepared statement of Ms. Autesserre follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
       
                              ----------                              

    Mr. Smith. Thank you so very much for your testimony.
    Ms. Sawyer?

  STATEMENT OF MS. IDA SAWYER, CENTRAL AFRICA DIRECTOR, HUMAN 
                          RIGHTS WATCH

    Ms. Sawyer. Chairman Smith, Ranking Member Bass, members of 
the subcommittee, thank you for the invitation to testify. I 
appreciate your ongoing and bipartisan interest in the 
Democratic Republic of Congo.
    As you know, President Kabila's constitutionally mandated 
two-term limit ended in December 2016. Yet he has used one 
contrivance after another to delay elections, while plunging 
the country into a web of security, humanitarian, political, 
and economic crises that have had devastating consequences for 
the Congolese people and risk destabilizing the volatile 
subregion.
    During U.S. Ambassador to the U.N. Nikki Haley's recent 
visit to Congo, she pressed Kabila to hold elections before the 
end of 2018. Clearly in response, Congo's Electoral Commission, 
the CENI, published a new calendar setting December 23, 2018, 
as the date for Presidential elections. The silver lining here 
is that the CENI's response shows the considerable influence 
the U.S. Government continues to have in Kinshasa. Haley's 
visit and strong messaging signaled renewed high level U.S. 
engagement on Congo. It showed Congolese Government officials 
that, not only does Congress continue to be seized by the 
political crisis in Congo, but that the Trump administration is 
also watching very closely.
    Yet at the same time, the message that elections only need 
to be held before the end of 2018 was seen by many Congolese as 
giving a free pass for Kabila to continue his delaying tactics 
and stay in power another year, despite his lack of 
constitutional legitimacy. Congolese officials have blatantly 
disregarded previous election calendars, while Kabila and his 
ruling coalition have largely ignored the main terms of the New 
Year's Eve agreement signed last year.
    Kabila should be stepping down by the end of this year. By 
unilaterally extending the timeframe, the U.S. runs the risk of 
losing credibility among key actors in Congo. Yet if the U.S. 
is willing and able to use its influence now to ensure fair 
elections that reflect the will of the Congolese people, it 
could rebuild any lost legitimacy. The question now is how far 
will the U.S. go?
    Senior U.S. officials delivered messages similar to those 
of Ambassador Haley as the end of Kabila's two-term limit 
approached in 2016. When that deadline passed, U.S. officials 
pressed Kabila to organize elections by the end of 2017. Since 
then, Kabila instead entrenched his hold on power through 
corruption and repression. Congolese Government and security 
force officers went so far as to implement a deliberate 
strategy of chaos through orchestrated violence, especially in 
the southern Kasai region, where up to 5,000 people have been 
killed since August 2016. Nearly 90 mass graves are scattered 
across the region, 600 schools have been attacked or destroyed, 
and 1.4 million people displaced from their homes, including 
30,000 who fled to neighboring Angola.
    In March, two U.N. investigators, Michael J. Sharp, an 
American from Kansas, and Zaida Catalan, a Swedish and Chilean 
citizen, were killed while investigating violence in the 
region. Human Rights Watch investigations suggest government 
responsibility for the double murder.
    Predictably, government and CENI officials have cited the 
violence in the Kasais as one of the main excuses for why 
elections could not be held this year. Kabila's refusal to 
relinquish the presidency can partly be explained by the 
considerable fortune he and his family have amassed during his 
tenure and the millions of dollars in mining revenue that have 
gone missing. Such corruption has helped leave the government 
bereft of funds to meet the basic needs of an impoverished 
population. Hundreds of government employees went on strike in 
recent months, including hospital workers who hadn't been paid 
since 2016. This comes amid a national cholera epidemic and 
impending famine threatening millions of Congolese.
    Meanwhile, brutal repression has continued unabated, as 
Fred described. Security forces shot dead more than 170 people 
during protests in 2015 and 2016. Earlier this year, security 
forces killed 90 people in a crackdown against a political 
religious sect. During a protest in Goma just on October 30, 
security forces killed five people, including an 11-year-old 
boy. Hundreds of opposition leaders, activists, and journalists 
have been jailed. In July, unidentified armed men shot and 
nearly killed a judge, who refused to hand down a ruling 
against an opposition leader.
    These actions are very much at the heart of how Kabila and 
his coterie seek to overcome the political crisis, by using all 
available institutional authorities to squash, silence, and 
flat out eliminate any opposition to his efforts to hold on to 
power.
    More protests are planned in the coming days and weeks. 
Citizens movements, human rights activists, and opposition 
leaders have denounced the new electoral calendar as a fantasy 
and shameful maneuver by Kabila to stay in power indefinitely. 
They have urged the Congolese people to mobilize. They have 
proposed a citizens' transition, without Kabila, led by 
individuals who could not be candidates to allow for the 
organization of credible elections. There is a real risk of 
increased violence in the coming months.
    As things now stand, the U.S., including Congress, cannot 
afford to take its eyes off Congo. There is too much at stake. 
First, Congress should hold the executive branch to account and 
make sure the administration is not being fooled by empty 
promises. Kabila has given no clear signals that he intends to 
leave power, while the repression, violence, and corruption 
have become so pervasive across institutions and security 
forces that it is nearly impossible to imagine credible, 
peaceful elections being organized with Kabila still President.
    While there is no easy path forward, a short citizens' 
transition without Kabila is probably the best way to ensure 
good elections. To get there, the U.S. should work closely with 
regional and international partners to press Kabila to step 
down, and share concerns about Kabila's physical security after 
he leaves office are addressed and actively support 
consultations to determine the management of a post-Kabila 
transition.
    We also urge Congress and the U.S. administration to 
support the following: Expand targeted sanctions on Kabila's 
family members and close financial associates, including those 
involved in serious corruption to quash peaceful dissent or 
otherwise maintain Kabila's rule. Previous sanctions against 
senior security force and government officials have had an 
impact and appear to have helped change behavior and affect the 
calculus of some top officials. Yet additional sanctions are 
needed to show Kabila himself that there are real consequences 
for the ongoing violence and election delays.
    Publicly denounce the repression. Call for the immediate 
release of all political prisoners and for all politically 
motivated charges against opposition leaders and activists to 
be dropped.
    And three, continue support in this challenging environment 
for the U.N. peacekeeping mission.
    We also hope you will continue to press for an independent 
investigation into the murders of the U.N. experts Sharp and 
Catalan and to help ensure that those most responsible are held 
to account. Efforts to date are far from adequate. A failure to 
do so would send the message that those responsible for such a 
heinous crime can escape justice, risking future lives, not 
only in Congo, but across the world where U.S. and the U.N. 
have deployed experts.
    The U.S. has important influence in Congo and can help 
prevent more bloodshed, but time is running out. Strong, 
courageous positions and actions are needed to demonstrate that 
the U.S. is on the side of the Congolese people and their 
aspiration for a democratic, rights-respecting, and accountable 
government.
    Thank you.
    [The prepared statement of Ms. Sawyer follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
                              ----------                              

    Mr. Smith. Ms. Sawyer, thank you very much as well.
    Let me just ask a few opening questions about the 
imposition of sanctions now is something that you clearly have 
indicated. And, of course, in his testimony as well, 
Dr.Dizolele made a very strong appeal. As a matter of fact, the 
first recommendation is to impose sanctions on Joseph Kabila, 
his family, and his inner circle.
    I know that the administration is very, very serious about 
this course. They hope it doesn't come to it, but my sense, and 
gleaning from your testimony, it should be done now.
    By way of background, I am the author of the Belarus 
Democracy Act. I remember, on this panel--I have been on this 
panel since the early 1980s--when we voted on sanctions against 
South Africa, which I supported, and strongly supported, 
because apartheid is an abomination. Thankfully, it is in a 
dust heap of history but there was always concern about the 
impact it would have on unintended victims who then would get 
hurt by those broad-based sanctions.
    When I did the Belarus Democracy Act of 2004, which became 
the template for the Magnitsky Act, the whole idea was to 
single out the bad actors, starting often with the President, 
in that case it was Lukashenko, the President of that country, 
and his henchmen and people who were benefiting. And we put 
visa bans on them, and we also said, you can't do business 
here.
    And I was the House sponsor of the Magnitsky Act here, and 
it became an amendment, became law, and is a very useful tool. 
And I am glad that we have it, but the tool needs to be 
utilized. So the big question is not that if it will be done, 
and we have legislation I am going to be introducing, joined by 
my good friend Karen Bass, that really admonishes the 
administration to do just that. Delay is denial. Unless we see 
very significant progress that this is really going to happen, 
it is going to happen--hopefully it would have happened sooner. 
I think December 28 is unconscionably long, to wait more than a 
year. So I just want to ask all of you right up front if 
there's any downside to doing it right now.
    For example, Nikki Haley has said, and she told us 
yesterday, and it was said, we would not provide funding for 
the election if there were problems, if it was delayed again. 
And that perhaps could unwittingly, incentivize Kabila to say, 
``Okay, I am out of here. I am going to stay President for 
life.'' Of course, the wrath of sanctions from not just the 
U.S., but the EU and others would then come tumbling down upon 
him, at least that would be the hope.
    So I just want to make sure that we fully understand the 
possible consequences. I think sanctions are needed. If you 
don't use them, it becomes something in the toolbox that 
dictators and people who want to be Presidents for life turn 
around and say, no worry here, there is not going to be a 
sanction now or into the future.
    So I think they need to be used very prudently and very 
effectively. And again, as you said, Professor Dizolele, you 
want it now. So if you go speak to the positive and the 
negative on that, and you have done a little bit in your 
testimony, and I appreciate it, but I think it would be good to 
get it very clear, should these be done today?
    Yes, Professor.
    Mr. Dizolele. Thank you, Mr. Chairman. Two things really. I 
think now is the time of imposing the sanctions. In fact, they 
are long overdue. I mean, sanctions should have been in place, 
or the threat of sanctions should have been in place in 2016, 
in January, because all the signs had been there.
    We are talking here about targeted sanction to one specific 
group of people. We are not saying that the entire country of 
DRC should be on the embargo from the U.S. This has worked in 
the past. President Mobutu, in his last days, faced similar 
situations.
    So back then, the U.S. led the charge, along with the 
Europeans, sanctions were imposed on him. Mobutu had been a 
strategic partner of this country, had received the Legion of 
Merit, one of the highest honors the U.S. can bestow on a 
military officer. But when the time came to let go, we did let 
go. We put sanctions on him, on his assets, on his children, 
children who were studying overseas, one of his sons was 
studying in Canada. Canada followed suit, denied him visa. He 
could not go back to study. It was very effective in that way. 
His associates faced the same situation.
    Today, if we are blissfully naive to accept that Kabila 
will hold elections in December of next year, then we have not 
learned anything over the last 16 years, and the joke is on us. 
By that I mean Kabila only understands the language of force. 
His people have said so so many times. They have said that we 
came through force. If you want us to leave, we will only leave 
through force.
    One force is sanction. Again, it is just to target 
specifically them. The children go to school here. They have 
come to your offices with their expensive suits and expensive 
bags to tell you why they should stay, and most of the time 
that is not founded in any logic. So I think we should not be 
catering to them.
    In fact, one thing I want to say, the idea that if they do 
not act a certain way, the international community will not 
engage, that is music to their ears, because that is exactly 
what they--that is the perfect scenario. Nobody gets involve. 
Let me play the field the way I want.
    So we should avoid, actually, aligning ourselves behind 
that position. It is a very weak position from Kabila's 
perspective.
    Thank you very much, sir.
    Mr. Bauma. I would like to add something to what Mr. 
Dizolele is saying. I think the problem of DRC is not only--the 
group Kabila and all the autocratic system around him is not 
only seeking the power for the sake of power. I think it is the 
way for them to get rich, to get access to resources, and to 
use them in different ways.
    And I think the other thing is that the same resources are 
finally used to oppress people. And the recent research shows 
that, for example, with Blanco, that they had paid, I think, 
$750 million<greek-l>s of dollars deg. to the system, which 
could have been enough to organize election, even if the 
election is very expensive.
    So I think, as Mvemba said, that sanctions should be 
applied and should be applied now. And those sanctions--the 
fact is that the inner circle of Kabila is made of people who 
are all businessmen. They are officials, the civilian people, 
his family, all of them have very deep link in mineral 
resources or any kind of business.
    So I think the efficient way is not only to target them in 
the way of banning travels or something like that, but be able 
to touch their resources where they can really feel it. And if 
they can stay in power but without protecting their financial 
assets, I think the interest of staying in power will lose its 
essence.
    So I think it is important to target them now, but more 
important to target them where it is really valued, where it is 
important to touch, not only general target.
    Ms. Autesserre. Thank you, Chairman Smith. I am going to 
add two points. The first one is that if sanctions are used, 
they should really be used as part of a much broader 
legislative program.
    Sanctions may help. It is not 100 percent sure, but it may 
help, but clearly it won't be enough. So it should really go 
with support for peacebuilding, for human rights, and for 
basically what Honorable Yamamoto was saying: The human rights 
and the political side of the organization of elections.
    The other thing, the other point is that sanctions should 
not only be linked to the electoral issue or to the fact of 
whether or not those in power are going to leave power, but 
also to the broader problems, meaning that they should be 
linked to the respect for human rights and to an end of human 
rights violations and to an end to violence as well. This is 
really important.
    Ms. Sawyer. Thank you, Mr. Chairman. I fully agree that 
targeted sanctions should be applied now. We should not wait 
any longer. The fact that a calendar was announced does not 
mean that we are necessarily having elections, and we have seen 
the repression, the violence, the massive human rights 
violations continue unabated with complete accountability. So a 
strong signal should be sent. And targeted sanctions is a very 
clear tool that you have available to send that signal.
    We have also seen how the targeted sanctions, which have 
already been applied, have had an impact. They have rattled the 
political class, the senior security force officers. These are 
individuals who travel regularly to Europe, to the United 
States. They do their shopping abroad, their medical 
appointments abroad. Many of them have homes overseas. Their 
children study in the U.S. or Europe. They have bank accounts 
in U.S. dollars. They are personally very affected by these 
targeted sanctions. And many of them, since the sanctions 
started, you know, they are coming to us, to others, asking 
what can they do to avoid being on the list, or if they have 
already been targeted, how they can get off the list.
    So it has an impact, but so far, Kabila's inner circle, his 
close family members, his financial associates, they haven't 
been affected. So I think now is the time to go further up and 
show Kabila himself that the consequences are real. Thank you.
    Mr. Smith. I appreciate that. I would just remind, and for 
the record, point out that the President has this authority. It 
is very clear and it is compelling. We reiterated in the bill 
that we are going to be reducing very shortly, that the 
President in his Executive Order 13413, as amended by Executive 
Order 13671, shall impose the sanctions described in section C 
within 60 days of the date of enactment of this Act against any 
high-level individuals responsible for undermining democratic 
processes and institutions in the DRC and the entities they own 
or control, including senior DRC Government officials, their 
international commercial facilitators with offshore companies, 
and complicit family members and associates. It shall also 
impose sanctions described in our bill, which we have yet to 
introduce, we have a draft now we are working on, describes in 
subsection D, and it goes on from there.
    But we are going to be looking for bold and demonstrative 
actions. I mean, talk is cheap, particularly here in 
Washington, and we have got to make sure it is backed up by 
something that is more significant, like a sanction. And I can 
tell you--because I was just in Minsk for a parliamentary 
assembly of the OSCE Parliamentary Assembly, I am the co-chair 
of the Helsinki Commission--Lukashenko has released the 
political prisoners over the years, and there may be just one 
left. Maybe two, we are not sure. But the point is, sanctions 
work, but they have to be applied.
    So let me ask a question, Ms. Sawyer, maybe start with you. 
I asked the previous panel, obviously the two distinguished 
witnesses from the administration, and spoke to the issue of 
the 3.8 million, and there may be other estimates but ballpark, 
of internally displaced people, which is a catastrophic event 
anywhere in the world, the DR Congo especially, but certainly 
3.8 million displaced. They are refugees within their own 
borders, and that is a terrible, terrible situation.
    The acute food insecurity has reached 7.7 million. Again, 
there may be higher estimates for that. But that means hunger, 
famine, low birthweight babies, stunting, and a whole host of 
other deleterious effects on the most vulnerable: Women and 
children.
    You pointed out in your testimony, Ms. Sawyer, that in the 
Kasai region, 5,000 people have been killed since August 2016. 
And you point out the impact that has had in your testimony on 
schools. Six hundred schools have been attacked or destroyed, 
as you testified. One-point-four million displaced from their 
homes in this area, including 33,000 who fled to neighboring 
Angola, so they are obviously refugees.
    You make a very, very important point. Predictably, 
government officials have cited the violence in the Kasai as 
one of the main excuses for why elections were not held in 
2017. Seemingly, and maybe you could speak to this, 
incentivizing the use of violence to impose martial law, which 
means killing people in the streets. And so maybe you can speak 
to that. And that is a perverse outcome. Rather than getting to 
the election, it is in the government's interest to do these 
kinds of things and others.
    Maybe you might want to speak to that.
    Ms. Sawyer. Sure. Thank you, Mr. Chairman. So we at Human 
Rights Watch, we have interviewed numerous security force 
officers in Congo, who have told us about a deliberate strategy 
of chaos. So effectively, orchestrating violence, either by 
security forces or government-backed militias, instigating 
local level conflicts to create more violence, and then with 
these horrific humanitarian consequences that we saw in the 
Kasais, and then later that is used as an excuse: We can't 
organize elections. We can't do voter registrations in the 
Kasais because we are dealing with this terrorist threat from 
this militia group in this area.
    We see also in the east, there is a lot of government 
manipulation of armed groups there. In Kinshasa and Kongo 
Central province in south western Congo, reports of 
manipulation of the Bundu dia Kongo political-religious sect 
possibly to create new violence, repression, another excuse to 
delay elections. So it is--as you said, it is very perverse, 
and it is just another sign that there is no--we have not seen 
any signs of a real intention by the part of Kabila to organize 
elections and step down.
    Mr. Smith. Would the other panelists want to speak to, as 
you coined it, the deliberate strategy of chaos fomented by the 
government?
    Yes, Professor.
    Mr. Dizolele. Yes. Mr. Chairman, in fact, this is one of my 
greatest fears in terms of delaying till 2018, because what is 
happening in Kasai is obviously part of this larger strategy of 
chaos. If we were to wait until 2018, I am willing to bet on my 
honor that we will see more flashpoint and zones of conflict in 
the next 3 months. That might even be longer. We don't know 
where they are going to pop up, but they are most likely to 
happen.
    Going from crisis to crisis is one of the favorite pastimes 
of the Kabila regime. In fact, a good friend of mine who used 
to work in the system likes to say, ``The boss is a specialist 
in rotten situations.'' In other words, they like these kind of 
situations. So waiting until 2018 poses a serious risk for 
this. Thank you.
    Mr. Smith. Thank you.
    Mr. Bauma. I think in term of violence as a strategy, 
people like to focus on Kasai because, of course, over this 
year, Kasai was the main region where there was a lot of 
violence. But I think now there are other regions where 
violence is, once again, used as a strategy. So I feel like the 
focus on Kasai has at least made the government official feel 
like it is becoming a lot of pressure on them.
    And now we see that in Benin, for example, the violence 
restart again after almost 1 year of stability. We see that in 
Uvira in South Kivu, without the help of MONUSCO, Uvira would 
have been under the control of some armed group. Some of them 
have worked with the governments in the past. We see that in 
Tanganyika or in Ituri, the same thing has started and started 
again.
    So I think the strategy of violence works very well in DRC. 
And I would not be astonished to see that, in January or in 
February or in April, that another region, another Kasai is 
created somewhere, maybe in Bakongo or in Equateur, and be used 
as a reason to postpone the election once again.
    And I have to say that there will always be a reason that 
seems to be a good reason to postpone the elections. Last year 
it was, we had an agreement, now we will have election at the 
end of the year, everybody is okay. Today is, we have a 
calendar, we can have election next year. Next year, we will 
have some other reason. And the U.S. and other countries will 
say, ``Well, we can support election for 2019.'' And unless we 
understand that this, all these are tactics for delayed 
election, we will never have election.
    We have to understand what Kabila and his government want, 
really, and they will never organize the election that will end 
up removing him from power. They may organize violence and 
other kinds of humanitarian crisis, but not election.
    Ms. Autesserre. To emphasize something that Mr. Bauma said, 
I think that it is really important to keep in mind that, yes, 
you have manipulation of violence, an instigation of violence 
linked to the electoral issues, but a lot of the violence is 
also unrelated to electoral issues. You have regional tensions 
between Rwanda, Congo, Burundi, et cetera. You also have local 
conflicts over land, over traditional power of who is going to 
be the highest-ranked individual, family, ethnic group in a 
specific area. And this sometimes relates to the electoral 
issue and sometimes it doesn't.
    So when we are thinking about ending the humanitarian 
crisis that you described, and ending the violence, we have to 
focus, yes, on the electoral issue, but also on all of these 
other issues at the same time.
    Mr. Smith. Please, Dr.Autesserre, you talked about the 
biggest takeaway from your own book, which I think was, to 
bottom-line it so well, I think is very helpful to the 
subcommittee, to build on local expertise. I think there is an 
underestimation, and I think you really have eloquently spoken 
to that, that local expertise is excluded by design or by just 
inability to appreciate what is available.
    Is USAID tapping into that local expertise? And secondly--
and all of you might want to speak to this as well--the role of 
the faith community, the Catholic Church, not just in 
elections, but also in reconciliation and, of course, the 
provision of humanitarian aid, which is an important. Faith-
based entities do provide, very efficaciously, food, clothing, 
and shelter, and medicines. I mean, I have been in countries 
all over the world. The secular groups do it great, but so do 
the faith-based, and they often really get an army of 
volunteers mobilized, which is one of their assets.
    But if you could speak to that. And while you are answering 
it, the role of the church in the elections--which you might 
recall I asked of the earlier panel--in making sure that 
violence gets tamped down, hopefully eliminated, while they 
move toward a credible free and fair election.
    Doctor?
    Ms. Autesserre. Thank you so much, Chairman Smith. I think 
regarding USAID, they are doing better than they were doing 10 
or 15 years ago, in terms of tapping into local capacity. But 
it is still clearly not enough. The way USAID works is still: 
We are here in DC, and we know what is best for people we are 
trying to help. So we know what is best for people in Congo and 
other parts of the world, and therefore we design programs here 
in DC.
    And then when we involve Congolese people, it is going to 
be only at the stage of implementation. So people who are on 
the ground in Congo will only have to do things that have been 
decided----
    Mr. Smith. On that point, is that because indigenous NGOs 
don't have the capacity to write those proposals or the NGO 
community in general not including the locals in a way that 
makes them full partners?
    Ms. Autesserre. I don't think so.
    Mr. Smith. Okay.
    Ms. Autesserre. I think it is mostly because it is not only 
USAID, it is most nongovernmental, international organizations. 
I think that outsiders----
    Mr. Smith. So it is a systemic problem throughout the whole 
humanitarian response.
    Ms. Autesserre. Exactly. Exactly. We think that outsiders 
know better and we think that outsiders have the answers. And 
the way to help is to build on outsiders' knowledge. What I am 
saying is that there is--I mean, look at who is sitting next to 
me--there is local capacity. There are people who have the 
knowledge, the expertise, and who could help design the 
international programs. It is just that the standard operating 
procedure is not to ask them. And it is to decide things by 
ourselves here in national capitals and then go in the country 
and implement them on the ground.
    As to the role of the church, it is very difficult, I 
think, to talk about the Catholic Church in general in Congo, 
because to me, I have seen members of the Catholic Church, 
including bishops, that are high-ranking members actually fuel 
violence, have discourses that fuel violence, that are full of 
hatred against a specific community. I have seen that in Goma, 
I have seen that in Bakavu, I have seen that in one-on-one 
meetings with these people. And I have also met priests who are 
in a village in the middle of nowhere and who are the main 
reason why you have peace in that village or why you have some 
response to the humanitarian needs in that village.
    So we have to be very careful, I think, not to think about 
the Catholic Church as a whole, you know, an entity, but really 
to think whether specific individuals within the Catholic 
Church are the kind of individuals who we want to support or 
whether they are the kind of people we should actually be 
staying clear of.
    Mr. Smith. Well, on that point, it is my experience that 
the church plays a very decisive peacemaking role. If you have 
names of people who are doing something contrary to that, I 
would ask that you provide that to the committee.
    I remember going back to the very old days of El Salvador 
when there was civil war with the Duarte government and the 
FMLN. I traveled down there frequently. And it was Catholic 
Church that was doing the human rights work and humanitarian 
work in a way that provided a bridge to two disparate groups 
that had nothing in common. That is a very serious charge, if 
that is true.
    We work with a number of bishops and others throughout all 
of Africa, who, in my experience--and Greg and I do meet with 
them every time we travel, and with pastors that they do 
provide--in essence, not just Catholic, it is also the other 
wonderful faiths that are out there, Muslim and Christian 
alike, who are playing very positive roles. So any names you 
have, please provide that for us.
    Would others like--oh, I am sorry. Yes.
    Mr. Dizolele. Mr. Chairman, thank you. I just want to 
nuance a couple points.
    Mr. Smith. Sure.
    Mr. Dizolele. The Congolese want a change. They want a 
couple things. One is to respect the rule of law. They did go 
to a referendum in 2005 to have this Constitution. So they are 
not idealists to believe that once President Kabila leaves, 
everything will become a paradise on earth. But what they are 
really interested in is to respect the sacrifices of the people 
who fought for this change so that the President steps down, 
let another Congolese, man or woman, emerge and take it to the 
next level.
    All the problems that Dr.Autesserre has mentioned are part 
of an extension of the failed regime that is leading the 
country. So the hope is that as a new regime, a new leadership 
comes in, some of those key issues of provision of services, 
including security and health and education and others, will be 
addressed with the new leadership. So that is what people are 
fighting for.
    In that case, then, the election becomes very critical. In 
other words, we will never get there, even to start, if we are 
always going around and around. We wasted 16 years since the--I 
mean, the generation, the kids who were born when Mobuto fled 
are now at university, you know. Fred was 10 years old when 
Mobuto fled--7. Okay. So the young man here was 7 years old 
when Mobuto fled, and now he is speaking for his country and we 
are still talking about the same thing.
    So this is the time that is very decisive to cut that 
golden knot. And that is the importance of having this 
transition become a reality as soon as possible. Thank you very 
much.
    Mr. Smith. If you would like to add.
    Mr. Bauma. I would like to add to what Severine said at the 
beginning about the local capacities and the peacebuilding. And 
one thing is that I think the way some expert or some ex-pats 
come with their solution and the way they understand, for 
example, peace or stability, is like the minimum level of it 
that Congolese people cannot accept.
    You know, like when, for example, the U.N. talk about 
peace, is like if we can live in the city where we will not 
have some trouble within a week, it is good enough. And for 
people who have lived in a conflict, in the violence for very 
long period, there is some low standard of peace that we will 
not accept anymore. And we are not looking for something 
minimal. We are looking for something that may be sustainable.
    And I think Congolese people have even said we have some 
solutions to our own problems. And I think it may be, the best 
way may be to work on the solution that Congolese people are 
suggesting to their own problem. And instead of bringing some 
imported solution, which works in offices in DC, in USAID, or 
other NGOs, and where local actors will just have the role to 
implement them in circumstances or things like that.
    I think there is so many groups, small groups, maybe less 
known, who have very creative ways to address conflict, to 
mobilize communities, to organize communities in their region 
that needs attention for USAID and other U.S. best groups. And 
it is important to listen to them, to understand how they do, 
and to support them, instead of coming and give them what they 
should have done while they are the one who knows what they 
want.
    And what Mvemba said about election is, that is true. There 
is so many crises in DRC, but I think with time, and this is 
also related on what I say, that minimal peace that we will not 
accept anymore. The fact of saying, well, we have to make sure 
there is a kind of stable country and then sort of small 
problem and small problem, but the root cause is--seems to be 
related on the problem of leadership in the country. And I 
think the election is just one way to do it, but it is the 
first way to do it. And I think in terms of long-term process, 
the civic education, the process of creating another kind of 
citizenship, citizen, is the main point.
    I think the election should be understand that the point 
where we start to bring, to build a different country, a 
different system. And what for us, LUCHA, for example, we 
believe is that we will make all possible to have peaceful 
transition, but we are sure that the process will take so long, 
the process of having the democracy and the country as we would 
like to see it, will take so long. And we continue to work on 
it and to make sure even the next President, we will be able to 
hold him accountable, and the next one. And we will oppose to 
any other President who will do the same thing as Kabila.
    So the election is not like a panacea for us, but it is a 
key point. It is something which has to happen in order to 
allow us to see the future as we would like to see.
    Mr. Smith. Let me ask with regards to U.N. issues. Your 
assessment of the U.N. peacekeeping deployment, MONUSCO, are 
their rules of engagement robust enough? Is the number of 
personnel deployed adequate or is there a need for more?
    Ambassador Haley made a very important point yesterday on 
how important it is that women be much more included in those 
deployments, particularly since sexual violence is so rampant. 
And on the zero tolerance policy for trafficking, again, I have 
had four congressional hearings alone on DR Congo. And previous 
terrible exploitation by peacekeepers of young children and 
women. We went there, we argued with them, went to Goma, as I 
said before, and right now, we are thinking of putting together 
another trip to go back to DR Congo hopefully by the end of 
this year, if not early next year, on a myriad of issues, 
starting with the elections.
    So your thoughts on those three things. And then second, if 
you don't mind jotting this down for your answer, I mentioned 
earlier about the assessment done by the U.N. for how much 
humanitarian aid is needed. There were about 42 percent for 
2017, which is paltry compared to the need.
    I did ask the administration witnesses if they have 
confidence in those assessments, and my sense is that they do. 
They may be a little bit highball or lowball, who knows, but it 
is order of magnitude, correct? What does that kind of 60 
percent underfunding for at-risk people do to those vulnerable 
people? I mean, in terms of food, security and the like.
    And finally, last Congress, I was the House sponsor of the 
Global Food Security Act, which was signed into law, and that 
legislation was largely drafted by Piero Tozzi sitting to my 
right, our general counsel; and Greg Simpkins, was an important 
focus on really making sure that the food insecurity systemic 
problem globally, especially in Africa, is addressed 
aggressively. It also put an emphasis on the first 1,000 days, 
from conception to the second birthday.
    Now, DR Congo has signed up to the U.N. program for the 
first 1,000 days, which is, in my opinion, the most 
transformative program ever, ever put together. If you ensure 
that from the moment of conception to that second birthday, 
both mother and child have food and supplementation, it 
mitigates maternal mortality and morbidity, as well as child 
mortality and morbidity. Stunting goes away, if it is properly 
applied, and things like neonatal deaths and the like, which is 
rampant throughout Africa, are lessened as well.
    Of particular point for me, on one area, I have written 
three laws on combatting the issue of autism in America, 
including the original, but also the most recent Autism Cares 
Act of 2012. One of the biggest takeaways from the NIH-funded 
projects, the peer-reviewed studies found, that when a woman 
gets folic acid in the first month of her pregnancy, the 
incidence of autism drops by 40 percent. That is absolutely 
radically revolutionary in terms of every woman of childbearing 
age should have folic acid to lessen this growing developmental 
disability pandemic that has consumed the world.
    In America, one out of every 68 individuals around the 
spectrum for autism in the world. It is very similar, as far as 
we can tell, although the studies have not been as robust, but 
we think there are at least 70 million people in the world 
around the spectrum for autism. And in Africa, according to the 
World Health Organization, we are talking about ``tens of 
millions.''
    So obviously, a country of approximately 100 million people 
will have huge numbers of autistic children, suffering parents, 
no early intervention, and all the other processes that helps 
to help those children. Folic acid, first 1,000 days, are just 
a few of a number of initiatives that could make all the 
difference in the world in the life of a child and of a mother. 
And again, maternal mortality, which I take a backseat to no 
one in trying to stop it every time we can, obviously we all 
know one of the greatest answers for that is to have a venue 
where the woman gets skilled birth attendance and access to 
safe blood, which is another issue.
    My own daughter-in-law, when she had one of our grandsons, 
had a very serious problem with hemorrhaging in a Princeton 
hospital, and I had to go to other hospitals to get enough 
blood at her blood type. Those situations have become 
catastrophic in a twinkling of an eye and a snap of a finger. 
So safe blood and all of that is part of what our response 
should be.
    And I like what you said, Mr. Bauma, that the problems 
preceding the election will continue after the election, 
obviously. This is not a panacea. So I think your point is very 
well taken here. But, again, the U.N. responses, I hope you 
jotted down some of those things, so we can get a comprehensive 
answer. We have to know, is the U.N. getting it right? Are we 
doing what we can do on all of these various issues?
    Okay. Start from right to left.
    Ms. Sawyer. Thank you, Mr. Chairman. I would start by 
saying that U.N. peacekeepers in Congo do absolutely critical 
work protecting civilians. And their presence across the 
country has saved countless lives, and we can't imagine how 
much worse it would be if MONUSCO was not present and if the 
peacekeepers weren't there to respond to threats, protect 
civilians, help displaced people, help people go to the market 
safely. So their presence is absolutely critical, and there is 
nothing happening on the ground now to indicate that we should 
start cutting back MONUSCO or that their presence is no 
longer----
    Mr. Smith. Again, my suggestion wouldn't be to cut back. It 
would be to make right----
    Ms. Sawyer. Right.
    Mr. Smith. And, again, on the rules of engagement, while 
you are answering.
    Ms. Sawyer. Yes. I just wanted to start by saying that they 
are critical, but that said, I think they could do much more to 
make their presence more effective.
    The rules of engagement, their mandate is very strong but 
it is often not--not the same across the board, how that is 
implemented. And different contributing countries will 
interpret their rules of engagement in a different way. And 
some are willing to be more robust than others to protect 
civilians and how they interpret their mandate.
    And I think we have a difficult contradiction within the 
peacekeeping mandate in that they are there to protect 
civilians, but also support the Congolese Government and 
security forces. And they are often conducting joint military 
operations with these forces or supporting them on their 
military operations against armed groups. But this is the most 
abusive force in the country that they are supporting, so that 
is often a contradiction.
    There is a strong human rights due diligence policy where 
U.N. peacekeepers are not supposed to be providing any support 
to Congolese army, officers, or soldiers who have serious human 
rights records. They should cut support if these abuses are 
taking place. But that is not applied as well across the board 
as it could be, so I think more can be done there.
    And regarding the political situation, the political 
crisis, I think much more could be done by MONUSCO peacekeepers 
to protect peaceful protesters and to deploy robustly alongside 
protests, alongside protestors. And that could be an important 
deterrent to Congolese security forces who have a tendency to 
fire on these peaceful protestors.
    In terms of the zero tolerance policy for trafficking and 
sexual exploitation and abuse, I think we have seen some 
improvements in recent years in trying to address these issues 
more quickly and more effectively, but there, again, much more 
can be done. And a lot of that is also with the--at the host, 
the troop contributing countries. So back home, these troops 
need to be held accountable and there often isn't followup. And 
the U.N. can do their investigation in Congo, but back in the 
capital from where these troops come from, there often isn't 
enough followup to ensure that they are actually held 
accountable in a court of law. So more could be done there.
    On the humanitarian aid and what the underfunding means for 
vulnerable people, the consequences are huge. You have hundreds 
of thousands of people displaced from their homes. That means 
that they are often not going to school. Children are out of 
school. They don't have the healthcare they need. They often 
don't have access to the food that they need. And that has all 
of the medical consequences. But then also, it is a generation 
of kids who aren't getting an education, that makes them more 
vulnerable to being recruited into armed groups. And then you 
just see the cycles of violence and impunity and abuse 
continue. So it is critical that these humanitarian needs are 
addressed, and they are enormous.
    I think I will leave the other questions to other----
    Mr. Smith. If you could, just one final question. On the 
U.N. civilian personnel, you mentioned the peacekeepers with 
zero tolerance. What is your sense on the U.N. civilian 
personnel sexually exploiting others?
    Ms. Sawyer. I would first just like to say that among the 
civilian personnel, that the human rights office is doing 
absolutely critical work in Congo, the U.N. Human Rights team, 
as part of the MONUSCO mission, and they are a strong office 
deployed across the country. And they are documenting abuses, 
publicly denouncing the abuses, meeting with authorities, 
pressing for change. And it is really, I would say, a model in 
Congo, from one of the best U.N. Human Rights teams that are 
deployed around the world, and that's something that should 
continue.
    On their political offices, I think they could be doing 
more in terms of their good offices to press the government to 
abide by their commitments, to put more pressure on the 
authorities, but that role is critical and could be enhanced.
    For sexual exploitation and abuse by civilian peacekeepers, 
I don't have specific information on that, but I don't have 
information about particular concerns either.
    Mr. Smith. Thank you.
    Doctor Autesserre?
    Ms. Autesserre. Thank you so much. I am going to second 
what Ida Sawyer said regarding the presence of United Nations 
peacekeepers, which is absolutely essential. In many villages 
in eastern Congo, the United Nations peacekeepers are the only 
people who are protecting the population from horrific human 
rights abuses by all kinds of armed groups. And so it is 
really, really important to keep them on site.
    Now, regarding whether the way they are working currently 
works, I think that there are two ways that they should revise 
the overall approach. The idea is not to get rid of the 
peacekeeping mission, but to make it more effective, as I 
understand that you want to do.
    The first thing is that, currently, they use what I call 
the top-down approach, meaning that they are trying to resolve 
the conflict and to build peace by working with the government, 
working with the elite in Kinshasa, working on high-level state 
reconstruction, and all of these very abstract things, which is 
important, but they are not focusing enough on supporting local 
bottom-up initiatives, the kind of initiatives that Fred Bauma 
mentioned, and that I mentioned as well. So I think that they 
should do much more to support local peacebuilding initiatives. 
And again, not arriving and saying, we are going to go in a 
village and we are going to resolve conflicts in that village, 
because they have no legitimacy and no expertise to do that, 
but really support the local actors who know how to resolve 
their own problems. So that is the first thing, supporting 
local, bottom-up peacebuilding.
    The second one is, again, to put local actors in the 
driver's seat. Because the way the United Nations peacekeeping 
mission works is like what we were talking about with USAID. 
They decide at the U.N. headquarters in New York, in Geneva, 
sometimes in Kinshasa, they decide how they are going to 
resolve the Congolese conflict. And then the decision trickles 
down, trickles down, and by the time it reaches Congolese 
people, the Congolese people are just implementing strategies 
that have been decided elsewhere. And the decision doesn't even 
include a lot of people who have extensive country knowledge. 
People who have been involved in Congolese efforts for 15, 20 
years, there are very, very, very few in decision-making power. 
So we end up with strategies that are very well-meaning, but 
that don't really address the problems on the ground.
    So that is why I think that we should really revise this 
way of working and build much more on the expertise not only of 
local people, but also of people who know something about Congo 
and who already are within the United Nations' system--but 
because of the way human resources work at the U.N., they end 
up working in Timor-Leste or in Sudan or in another part of the 
world. So really building more on local capacity and on country 
expertise.
    On your question regarding the consequences of underfunding 
humanitarian aid, I have a couple of statistics in my written 
statement that I think really illustrate what that means. So it 
is a United Nations statistic. It says that 77 percent of 
Congolese citizens live on less than $2 per day, less than $2 
per day. The life expectancy is less than 60 years. More than 
42 percent of children under the age of 5 suffer from 
malnutrition. And less than 25 percent of Congolese people go 
further than primary school in their studies.
    So it really means that if there is a way to increase the 
funding to the humanitarian support in Congo and to the 
development support, that would be absolutely essential, but at 
the same time, we should keep in mind that humanitarian aid 
means addressing the consequences of the problems, and 
especially the consequences of the violence. So we should also 
prioritize peacebuilding so that we finally address the causes 
of this enormous humanitarian crisis.
    Mr. Dizolele. Mr. Chairman, thank you. I agree with a lot 
of what has been said, the performance of the Human Rights 
office, their presence being critical, but I also have a lot of 
issues.
    I think we need to reduce the U.N. mandate in scope and 
time. This is part of the entire problem we have. The 
expectations and priorities are now perverted. The entire 
social contract is perverted. People expect things of the U.N. 
as opposed of their own government. They expect the security to 
be delivered by foreign troops that are just trying to survive 
themselves.
    And this underscores the failure of the Kabila regime; the 
U.S. has poured in billions of dollars literally to support 
Congo. And if we continue to think of the U.N. as part of the 
salvation, then we are in deep trouble. We are going on 20 
years of U.N. presence in Congo, and there is no military 
rising anywhere on the Congolese side.
    Mr. Smith. Can I just ask you on that point, if you don't 
mind the interruption?
    Mr. Dizolele. Yes, sir.
    Mr. Smith. Again, as those U.N. figures would suggest, 42 
percent of the kids underage suffer malnutrition, people are 
living on $2 a day, 77 percent. Many of us would always like to 
see aid as a bridge to the point of self-sufficiency. But the 
concern among many of us, certainly me, is pulling vulnerable 
people off life support.
    Your point is very well taken. This is what the government 
ought to be all about, and Kabila has failed miserably. But 
that said, how do you, in the interim--almost like an ambulance 
coming to the rescue, an EMT making sure that you get to the 
point of surviving--get to the point of hopefully flourishing. 
Your point is well taken.
    Mr. Dizolele. Yes.
    Mr. Smith. I respect it, but I would be concerned that 
there needs to be this bridge of humanitarian assistance.
    Mr. Dizolele. Yes. So I believe, Mr. Chairman, that the 
human rights branch of the U.N. should be fully funded and be 
made stronger because of the condition we are in, specialized 
unit of the U.N., UNICEF, the food program. Those are not 
MONUSCO programs. Those are specialized U.N. missions that are 
playing tremendous role in Congo, and they need more support.
    But that is different from looking at the U.N. as MONUSCO. 
So I think the nuances are very important, because if we are 
talking about security, it is one thing in terms of armed 
security and others. If we are talking about human securities, 
security place, this is what you are referring to, people on 
life support and others, we need to buttress that.
    So our challenge is how do we buttress those programs, 
whether it is the integration of women who have been raped, the 
support they need, the followup, with the entire notion of 
having 17,000 troops that are serving as an extension of a 
failed system that is in Kinshasa, which, by the way, received 
as much as it can get to build its own military to support it. 
That is undermining the entire emergence of the Congolese 
state. So something that we need to--we should not conflate 
U.N. presence with MONUSCO, because that has become a problem 
as well.
    Thank you very much.
    Mr. Bauma. Yeah. I think Mvemba made a very good point. I 
mean, the difference between the MONUSCO and the other U.N. 
agencies, which are doing a good job, like OCHA or UNICEF.
    I would like to focus a little bit on MONUSCO. And I also 
think that in MONUSCO, the Human Rights bureau of MONUSCO 
should receive a lot of fund to allow it to work properly, 
because I think they are doing really amazing job. But the rest 
of MONUSCO, although I have to recognize that the situation may 
have been worse if they weren't there, but there are many 
things that has to be questioned on how MONUSCO works.
    And I think there is a lot of--for example, there is a lot 
of entities in MONUSCO that, in my opinion, are not effective 
at all. Like, we have--and if you have the opportunity to 
travel in Congo, and if you came in Goma or in Beni, it will be 
important to have a position of people on how they see the 
MONUSCO and how they evaluate it. In some places in the region 
of Beni, there was a lot of killings, not far from the MONUSCO 
camp. And in many circumstances, the MONUSCO, after a certain 
time, they can't go out. I don't know if it is their internal 
policy of MONUSCO, but they--although they have equipment, they 
have guns and they have all means to protect civilians, I don't 
know if it is the problem of the mandate, but I think they are 
ineffective. And especially some units, the Indian, the 
Pakistani, or the Nepalese unit, which are ineffective.
    I think it is very important, if MONUSCO is to be 
maintained, to rethink how it is composed, what kind of troop 
it is composed, and what kind of specific mandate they have. We 
can't accept to have 20,000 troops that will not react, and 
when people are killed or when people are beaten by the police, 
they are just there observing, taking note. I think this is not 
how we understand civilian protection. I think if someone has 
to be saved, a life has to be saved, is at the time--if the 
life of someone has to be saved, they have to react 
immediately, not write a report in order to protect the life of 
other people when they can protect life of people in the 
present time.
    I remember in 2013, I think, when Goma was about to fall in 
the M23, there was a lot of MONUSCO troops that said, well, we 
can assure you that Goma will not fall. And I was in Goma at 
that time. And I remember how they start changing how they were 
saying, and say, ``Well, the primary responsibility of 
protecting the civilian is from the government.'' Which is a 
little bit funny because, if MONUSCO is in DRC, it means that 
somehow the government wasn't able to play its role, because if 
the government was effective, we could not need MONUSCO.
    So I think the way MONUSCO is funded, what kind of troop 
MONUSCO--what kind of troop in MONUSCO have to be rethink. And 
some countries should be courageous enough to send their troop 
in the MONUSCO. Because I think also the problem is that some 
countries which have maybe more effective troops don't send 
them in a country like DRC. Maybe they have another priority, 
Iraq or some country like that. And the consequence is that we 
have a force which is ineffective.
    The other thing with MONUSCO, I think their relation with 
Congolese security forces, and I mentioned this in my 
testimony, I think that kind of support should be stopped, 
because it is unbelievable to say the police using the fuel of 
MONUSCO coming and arrest peaceful demonstration or beat 
peaceful demonstration with money, with resources given by 
MONUSCO. And I pointed this out many times with MONUSCO 
officials in DRC, and I think it is time to stop that kind of 
cooperation with MONUSCO and the Congolese security forces, 
unless we want to agree openly that we are supporting human 
right violations and mass atrocities via MONUSCO.
    Mr. Smith. I thank you for that insight and for your 
opinion.
    I would just note for the record and I think, you know, we 
speak so often of all of you are very well versed on what 
MONUSCO is, but for those who may not, MONUSCO is a U.N. 
organization civilization mission in the DRC. It is the world's 
largest U.N. peacekeeping operation with about 17,900 uniform 
personnel as of August 31. And when you look at the size and 
the number of people living in the DR Congo, I mean, that is a 
little more than a division of military capacity.
    That is why I asked about whether or not there are 
sufficient numbers of deployed people are there to meet the 
need, and since we are dealing with an escalating crisis, it is 
not diminishing. Like you, I am very fearful that it is going 
to get far worse, and staging a growing peacekeeping deployment 
can't be done overnight. It does take time.
    So I would note for the record too that the U.N. Security 
Council Resolution 2348, which was done in 2017, tasks MONUSCO 
with two strategic priorities: One, protection of civilians; 
and two, support to the implementation of the December 31, 
2016, agreement and the electoral process.
    Before we conclude, is there anything else any of our 
distinguished witnesses would like to add? Yes.
    Mr. Dizolele. I thank you very much, Mr. Chairman. I just 
want to thank your committee, your subcommittee, for your 
support and continuous interest in DRC.
    I think we have traveled a long way. We have traveled deep 
into darkness and misery in terms of DRC. I think we have one 
more opportunity to end this misery for the people of DRC. The 
people of DRC have suffered enough. They have committed 
themselves to sacrifice themselves. We have seen this through 
various protests, various processes. If you tell DRC people 
tomorrow we are going to have a dialogue for peace, they will 
come, but they have also run out of strategic patience, to use 
a phrase that is fashionable these days. And we don't know; if 
we do not act, we might see a coup d'etat. We might see people 
take up weapons. So we should not lull ourselves into things 
will be exactly the way we are thinking. It is very serious, 
and I think there is a cadre of people who are standing as an 
obstacle to this.
    And again I reiterate: Kabila must go. We need to consider 
serious diplo sanctions on his family and his associates. 
Corneille Nangaa is standing in the way of having an election. 
We are not children. They shouldn't be playing with us. They 
shouldn't be playing with you. The future of the country is at 
stake. Thank you very much, sir.
    Mr. Smith. Thank you. And in those words, the hearing is 
adjourned. Thank you.
    [Whereupon, at 12:36 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

         
        Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



The previous document is not reprinted here in its entirety but may be 
found at: http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=106613



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations
                    
               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
     
                    
                    
                               [all]
                                 
                                 
                                 
</pre></body></html>
